<html>
<title> - CYBERSECURITY AND DATA PROTECTION IN THE FINANCIAL SECTOR</title>
<body><pre>[Senate Hearing 112-242]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 112-242

 
       CYBERSECURITY AND DATA PROTECTION IN THE FINANCIAL SECTOR

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                   BANKING,HOUSING,AND URBAN AFFAIRS
                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                                   ON

  EXAMINING CYBERSECURITY AND DATA PROTECTION IN THE FINANCIAL SECTOR

                               __________

                             JUNE 21, 2011

                               __________

  Printed for the use of the Committee on Banking, Housing, and Urban 
                                Affairs


                 Available at: http: //www.fdsys.gov /



                  U.S. GOVERNMENT PRINTING OFFICE
72-701                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="f097809fb09385838498959c80de939f9dde">[email&#160;protected]</a>  


            COMMITTEE ON BANKING, HOUSING, AND URBAN AFFAIRS

                  TIM JOHNSON, South Dakota, Chairman

JACK REED, Rhode Island              RICHARD C. SHELBY, Alabama
CHARLES E. SCHUMER, New York         MIKE CRAPO, Idaho
ROBERT MENENDEZ, New Jersey          BOB CORKER, Tennessee
DANIEL K. AKAKA, Hawaii              JIM DeMINT, South Carolina
SHERROD BROWN, Ohio                  DAVID VITTER, Louisiana
JON TESTER, Montana                  MIKE JOHANNS, Nebraska
HERB KOHL, Wisconsin                 PATRICK J. TOOMEY, Pennsylvania
MARK R. WARNER, Virginia             MARK KIRK, Illinois
JEFF MERKLEY, Oregon                 JERRY MORAN, Kansas
MICHAEL F. BENNET, Colorado          ROGER F. WICKER, Mississippi
KAY HAGAN, North Carolina

                     Dwight Fettig, Staff Director

              William D. Duhnke, Republican Staff Director

                       Charles Yi, Chief Counsel

                     Dean Shahinian, Senior Counsel

                     Laura Swanson, Policy Director

                           Pat Grant, Counsel

                 Levon Bagramian, Legislative Assistant

                       Dawn Ratliff, Chief Clerk

                      Brett Hewitt, Hearing Clerk

                      Shelvin Simmons, IT Director

                          Jim Crowell, Editor

                                  (ii)
?

                            C O N T E N T S

                              ----------                              

                         TUESDAY, JUNE 21, 2011

                                                                   Page

Opening statement of Chairman Johnson............................     1
    Prepared statement...........................................    24

Opening statements, comments, or prepared statements of:
    Senator Reed.................................................     2
    Senator Menendez.............................................     2

                               WITNESSES

Kevin F. Streff, Associate Professor of Information Assurance, 
  Dakota State University Information Assurance Center...........     3
    Prepared statement...........................................    24
Stuart K. Pratt, President and Chief Executive Officer, Consumer 
  Data Industry Association......................................     5
    Prepared statement...........................................    35
Leigh Williams, BITS President, on behalf of the Financial 
  Services
  Roundtable.....................................................     6
    Prepared statement...........................................    38
Marc Rotenberg, Executive Director, Electronic Privacy 
  Information Center.............................................     8
    Prepared statement...........................................    45
Pablo Martinez, Deputy Special Agent in Charge, Criminal 
  Investigative Division, Secret Service.........................     9
    Prepared statement...........................................    57

              Additional Material Supplied for the Record

Statement submitted by the Securities Industry and Financial 
  Markets Association............................................    63

                                 (iii)


       CYBERSECURITY AND DATA PROTECTION IN THE FINANCIAL SECTOR

                              ----------                              


                         TUESDAY, JUNE 21, 2011

                                       U.S. Senate,
          Committee on Banking, Housing, and Urban Affairs,
                                                    Washington, DC.
    The Committee met at 10:01 a.m., in room SD-538, Dirksen 
Senate Office Building, Hon. Tim Johnson, Chairman of the 
Committee, presiding.

           OPENING STATEMENT OF CHAIRMAN TIM JOHNSON

    Chairman Johnson. The Banking Committee will come to order. 
The Banking Committee meets today to hear testimony about data 
protection and cybersecurity issues in the financial sector.
    Over the past 12 years, the Committee has enacted several 
pieces of legislation to protect consumer data held by 
financial institutions. Federal financial regulators under the 
Committee's jurisdiction have issued extensive rules and 
guidance on data practices that require the institutions they 
regulate to keep data secure, notify customers and regulators 
when breaches occur, authenticate customers, and notify 
customers about how their sensitive information may be used.
    Recent high-profile data breaches at major institutions 
within the financial sector and elsewhere underscore the 
importance of cybersecurity for the American economy. Breaches 
are disruptive and raise the potential for financial fraud, 
identity theft, and, potentially, severe threats to our 
national economic security. This is an important issue that 
deserves the Committee's careful attention and continued 
oversight.
    Today I invite the witnesses to share their views in three 
areas: the current regulation of data practices affecting 
financial institutions and their customers; the current state 
of data privacy protection, data breaches, and cybersecurity in 
the financial sector; and how legislative proposals, such as 
the Administration's cybersecurity bill, would affect financial 
institutions and would interact with existing regulation.
    I look forward to the testimony of our witnesses and to the 
question-and-answer period.
    Are there any other members who would like to give opening 
remarks?
    Senator Reed. Mr. Chairman?
    Chairman Johnson. Senator Reed.

                 STATEMENT OF SENATOR JACK REED

    Senator Reed. Mr. Chairman, just very briefly, I want to 
commend you for holding this very timely hearing. The cyber 
dimension is something that is evolving so quickly, huge 
consequences not just in the realm of financial information but 
in national security policy. It is almost as if we are sort of 
in the same position our predecessors were in 1920 trying to 
figure out how to use the airplane, where it was a novelty or a 
fundamentally game-changing--obvious it was fundamentally game 
changing. So thank you, Mr. Chairman, for your thoughtful 
hearing.
    Chairman Johnson. Senator Menendez.

              STATEMENT OF SENATOR ROBERT MENENDEZ

    Senator Menendez. Thank you, Mr. Chairman. Briefly, I want 
to joint Senator Reed in thanking you for holding this hearing, 
something I have been very interested in pursuing in my 
legislation on the Cybersecurity Enhancement Act.
    I am concerned--and certainly the Committee's jurisdiction 
is very appropriate here when financial institutions face major 
breaches, and I am concerned about what are the financial 
institutions doing, number one, to enhance their position 
against cybersecurity attacks; and, number two, when there is a 
breach, what are they doing in their fiduciary responsibility 
to notify their customers of those breaches.
    It just happens that my chief of staff was one of those 
individuals whose information was breached under the City cyber 
attack. Now, unfortunately, he was not notified, and it was not 
until he attempted to use his card and found out that it was 
impossible for him to use it and eventually called Citi that he 
found out that, in fact, his information had been breached.
    Now, it seems to me that there is a fiduciary 
responsibility by the entity to proactively tell their customer 
that, in fact, that has happened. And it strengthens, I 
believe, the institution at the end of the day to be honest and 
forthcoming as well as it gives the customer, the consumer, the 
wherewithal to protect themselves as well.
    So I look forward to hearing some of the expertise of these 
witnesses, Mr. Chairman, and working with you to move to a more 
secure process for all of our customers, all of our consumers, 
all of our constituents.
    Chairman Johnson. Now I would like to welcome the witnesses 
for our panel today.
    Dr. Kevin Streff is a good friend from South Dakota. He is 
an associate professor and director of the Center for 
Information Assurance at Dakota State University.
    Mr. Stuart Pratt is the president and CEO of the Consumer 
Data Industry Association.
    Mr. Leigh Williams is the president of BITS, a division of 
the Financial Services Roundtable.
    Mr. Marc Rotenberg is the president of the Electronic 
Privacy Information Center.
    And Mr. Pablo Martinez is deputy special agent in charge in 
cyber operations at the Criminal Investigative Division of the 
U.S. Secret Service.
    I thank all of you again for being here today, and I look 
forward to your testimony. I will ask the witnesses to limit 
your remarks to 5 minutes. Your written statements will be 
submitted for the record.
    Dr. Streff, would you like to begin?

     STATEMENT OF KEVIN F. STREFF, ASSOCIATE PROFESSOR OF 
  INFORMATION ASSURANCE, DAKOTA STATE UNIVERSITY INFORMATION 
                        ASSURANCE CENTER

    Mr. Streff. Chairman Johnson, Ranking Member Shelby, and 
Members of the Senate Committee on Banking, Housing, and Urban 
Affairs, thank you for the opportunity to testify to the need 
for comprehensive cybersecurity legislation and in support of 
the Administration's cybersecurity proposal. I am pleased to 
appear before you today on behalf of the National Center for 
the Protection of the Financial Infrastructure at Dakota State 
University to share our views on security in small- and medium-
sized financial institutions. My name is Dr. Kevin Streff, and 
I am director of the NCPFI, whose mission is to advance the 
security and safety of the Nation's electronic financial 
infrastructure.
    Eighty-five percent of the U.S. electronic infrastructure 
is owned and operated by the private sector. PDD 63 identified 
financial services as a critical infrastructure, advising a 
public-private partnership model whereby the public sector 
partners would partner with the private sector infrastructure 
owners to secure it. While there has been much effort, the 
results are insufficient to safeguard this infrastructure.
    Cybersecurity laws for financial services have been 
enacted, including Gramm-Leach-Bliley, Bank Secrecy Act, USA 
PATRIOT Act, identity theft red flags rule, and Sarbanes-Oxley. 
PCI has also been established at a data security standard for 
card information.
    SMFIs, small- and medium-sized financial institutions, 
operate in a complex regulatory environment with community 
banks regulated aggressively and credit unions less. We 
encourage care in setting the new CNCI regulation to fit with 
the good work of the banking regulators.
    Over 300 million data records impacting financial services 
have been breached since 2005. When terrorists target these 
SMFIs and small- and medium-sized businesses, SMEs, they will 
find a soft underbelly of underprotected targets. I recently 
completed a study and found that 70 percent of small- and 
medium-sized businesses lack basic security controls. 
Information Week states SMFIs and SMEs have a wealth of data 
that cybersecurity thieves are targeting with increased 
regularity. White House Cybersecurity Coordinator Howard 
Schmidt recently stated that 85 percent of cyber attacks are 
now targeting small businesses.
    Technology is advancing faster than SMFIs can secure. For 
example, a picture of a check from a cell phone camera can be 
deposited in a consumer's account. Consumers are demanding 
mobile and social media technologies. The risk profile 10 years 
ago included a teenager breaking into computers for fun, while 
the risk profile today is a professional breaking into 
networks, cell phones, laptops, mobile devices, social media 
sites, merchants who deposit checks via imaging systems, 
service providers who host critical banking applications, and 
Web sites that validate flood plains and credit bureau 
information. With the mounting risks of offshoring, requiring 
data centers to be located in the U.S. seems good policy in 
increase our cybersecurity posture.
    SMFIs and SMEs lack security experts, unable to access and 
afford qualified security specialists who command six-figure 
salaries. Therefore, a SMFI will typically name a loan officer 
or a VP of Operations or their IT staff their information 
security officer. Understanding emergent security threats and 
threat actors and vulnerabilities takes expertise and simply 
cannot be assigned to existing staff. Universities, community 
colleges, and trade schools can do more to produce security 
experts that can work in these environments.
    We applaud the President for including CNCI Initiative 
Number 8, Expanding Cyber Education. We commend the Government 
for anticipating the cybersecurity issue and resource shortage 
back in 2001 when the NSA began designating Centers of Academic 
Excellence. Today 106 universities are designated Centers of 
Academic Excellence, and we encourage the President to consider 
expanding this program with funding so that more educational 
research and outreach opportunities are created to serve the 
needs of Government and industry, including small- and medium-
sized companies.
    The Financial Services Sector Coordinating Council has led 
the development of a formal research agenda necessary to 
improve the security of the electronic infrastructure. However, 
funding is, again, lacking to make significant progress. Other 
research funds, such as NSF, SBIR, and the like, could be 
augmented to carry out the Treasury's agenda.
    To the degree that major changes are needed at SMFIs and 
SMEs, we urge the Administration to consider this 
infrastructure and defense and fund it. If this infrastructure 
is a matter of national security, then the Government may have 
a funding responsibility, and just as roads are infrastructure, 
networks are cyber infrastructure. Just as tanks and weapons 
are funded to protect our defense interests, we urge the 
Administration to consider its financial responsibility as it 
relates to cyber defense.
    President Obama said it best: ``We count on computer 
networks to deliver our oil, our gas, our power, and our water. 
But we have failed in the past to invest in our physical 
infrastructure, and we are failing now to invest in our digital 
infrastructure. The status quo is no longer acceptable.''
    Electronic banking is the future. NCPFI and Dakota State 
University look forward to working with all stakeholders to 
operationalize the President's vision of a safe electronic 
infrastructure for all businesses. We applaud the President in 
making cybersecurity an Administration priority and concur with 
the President's comments that the ``cyber threat is one of the 
most serious economic and national security challenges we face 
as a Nation.''
    Thank you
    Chairman Johnson. Thank you, Dr. Streff.
    You may proceed, Mr. Pratt.

  STATEMENT OF STUART K. PRATT, PRESIDENT AND CHIEF EXECUTIVE 
          OFFICER, CONSUMER DATA INDUSTRY ASSOCIATION

    Mr. Pratt. Chairman Johnson and members of the Committee, 
my name is Stuart Pratt, and I am president and CEO of the 
Consumer Data Industry Association. Thank you for this 
opportunity to testify.
    Let me start with an overview of some of the most relevant 
laws and regulations which impose data security duties on the 
financial institutions today.
    One of the most pressing actions of the Committee was the 
1999 passage of Title V of the Gramm-Leach-Bliley Act, signed 
into law by President Clinton. Title V directed bank regulatory 
agencies and the Federal Trade Commission to develop 
regulations regarding the security of nonpublic personal 
information. These rules are flexible but do require financial 
institutions of all sizes to implement a written information 
security program, conduct risk assessments, and to do so 
periodically in order to update these programs.
    In 2003, the Committee amended the Fair Credit Reporting 
Act to require proper disposal of consumer information or any 
compilation of consumer information derived from consumer 
reports. This straightforward duty ensured that sensitive 
personal data about consumers was not simply left in a dumpster 
or on a hard drive of a laptop or a hand-held device which was 
sold without concern for the contents.
    As a result of this Committee's actions to enact both FCRA 
and GLB, our members have a number of duties to ensure that 
they also know their customers, which is yet another important 
part of ensuring that a full and complete data security program 
is in place. This is an area in which our members invest 
heavily.
    With this baseline of law in mind, you also asked us to 
comment on how proposals such as the Administration's 
cybersecurity bill would affect financial institutions that 
come under the Committee's jurisdiction. The key to successful 
cybersecurity initiatives is to ensure alignment between 
existing statutory and regulatory regimes and those that are 
new.
    CDIA believes that while it is absolutely and unequivocally 
appropriate for the Administration and Congress to focus on the 
ever changing mix of risks posed by cybersecurity threats, it 
is also important for new laws not to impinge on frameworks of 
law that are already established and create the necessary focus 
on data security. We urge Congress to consider the data 
security standards in GLB as the model for data security 
requirements for other sectors of the U.S. economy.
    Forty-eight States have enacted data breach notification 
laws, and some financial regulatory agencies have established 
guidance on this topic for those within their jurisdiction. 
While CDIA is on record as supporting a national standard for 
data breach notification, any new requirements resulting from 
efforts to address cybersecurity risks should not interfere 
with the direction of this investment, which requires multiyear 
planning.
    In focusing on cybersecurity risks, Congress should not be 
distracted by privacy issues that are not relevant to data 
security. Several congressional committees have delved into 
this privacy arena in an effort to address the data collection 
and use practices of so-called information brokers. Under these 
proposals, our members' products and services, which are 
particularly essential to the financial services sector, could 
be adversely affected. Consider the following:
    Financial institutions offering credit need to detect and 
prevent fraud and to verify the identities of individuals 
seeking products and services.
    Financial institutions must enforce contracts with 
customers who have the ability to pay but do not choose to do 
so.
    Lenders, who must comply with Bankruptcy Code requirements 
to cease dunning a consumer, use our members' tools in order to 
comply. USA PATRIOT Act Section 326 duties and FACT Act red 
flag guidelines demand that financial institutions properly 
identify their customers.
    Even President Obama's National Strategy for Trusted 
Identities in Cyberspace will likely rely on our members' 
current and emerging identity verification tools. It is our 
members' products and services that empower the financial 
services sector to protect consumers and comply with current 
laws.
    In closing, we applaud both the Congress and the 
Administration's focus on cybersecurity risks. We believe that 
this work must, however, be careful not to impair or impinge on 
effective laws that already address risks in the financial 
services sector. Alignment is key.
    I am happy to answer any questions. Thank you.
    Chairman Johnson. Thank you, Mr. Pratt.
    Mr. Williams.

 STATEMENT OF LEIGH WILLIAMS, BITS PRESIDENT, ON BEHALF OF THE 
                 FINANCIAL SERVICES ROUNDTABLE

    Mr. Williams. Thank you, Chairman Johnson and Members of 
the Committee. My name is Leigh Williams, and I am president of 
BITS, the technology policy division of The Financial Services 
Roundtable. BITS addresses technology policy on behalf of its 
100 member institutions, our millions of customers, and all of 
the stakeholders in the U.S. financial system.
    In my remarks today, I will briefly describe cybersecurity 
protections in financial services and explain why the 
Roundtable supports the Obama administration's cybersecurity 
proposal.
    In my view, most cybersecurity protection arises from 
individual institutions investing tens of billions of dollars 
and tens of millions of hours in voluntary measures for 
business reasons. Up at the industry level, BITS and several 
other coalitions promote best practices for protecting customer 
information. For example, BITS is currently addressing security 
in mobile, cloud, and social networking, protection from 
malicious software, security training and awareness, and the 
prevention of retail and commercial account takeover.
    Beyond these voluntary efforts, our members are also 
subject to a range of oversight mechanisms to ensure 
consistency throughout the industry. Just to take the security 
and privacy provisions of Gramm-Leach-Bliley as an example, 
this Committee and the Congress enacted GLB. The regulators 
detailed it in Regulation P. Regulation P was translated into 
guidance. Institutions used that guidance to manage their 
programs. Examiners audit the programs. Treasury monitors for 
consistency. And just to take this whole process full circle, 
this Committee oversees Treasury and the agencies.
    Beyond this sector-specific work, we collaborate more and 
more in public-private and in financial-nonfinancial 
partnerships, often with regulators, DHS, with law enforcement, 
with the intelligence community, and others.
    People are not just consumers or just customers or 
citizens. They are all of these. So business and Government are 
working together to protect e-commerce and national economic 
security.
    As the Committee considers action on cybersecurity, I urge 
members to appreciate these existing protections and these 
current collaborations and to leverage them for maximum 
benefit.
    Even given this head start, we believe that comprehensive 
cybersecurity legislation is warranted. It can improve security 
throughout the cyber ecosystem, including in the telecom 
networks on which our financial institutions depend, and it can 
strengthen the security of Federal systems and mobilize law 
enforcement resources.
    More specifically, the Roundtable supports the 
Administration's legislative proposal. We support many of the 
provisions on their own merits, and we see the overall proposal 
as an important step toward building a much more integrated 
approach.
    The Administration's proposal has this comprehensive 
approach. It addresses cybersecurity both at the level of the 
entire ecosystem and also within specific sectors like 
financial services. For example, the law enforcement title 
refers to damage to critical infrastructure computers, but also 
to wire fraud and mail fraud. The breach notification title 
refers to sensitive personally identifiable information and FTC 
enforcement, but also to financial account numbers and credit 
card security codes.
    We believe that harmonizing this comprehensive approach and 
the sector-specific mechanisms will be an important challenge 
as the Congress considers this proposal. There are at least a 
couple of ways of bridging this ecosystem/sector divide.
    First, the Congress could establish uniform standards but 
allow for exceptions where substantially similar requirements 
are already in place, as in the FFIEC agencies' breach 
notification requirements. Or the Congress could reserve more 
autonomy for the sectors. For example, it could be the sector-
specific agencies and not DHS that determine what entities are 
critical, much as in our sector the sector authorities 
designate the systemically important financial institutions.
    In conclusion, may I just say that at the Roundtable we 
will continue to strengthen security protection around our 
customers' information. We will help to answer this question of 
ecosystem/sector balance, and we will support and work to 
implement the Administration's cybersecurity proposal.
    Thank you very much for your time.
    Chairman Johnson. Thank you, Mr. Williams.
    Mr. Rotenberg.

  STATEMENT OF MARC ROTENBERG, EXECUTIVE DIRECTOR, ELECTRONIC 
                   PRIVACY INFORMATION CENTER

    Mr. Rotenberg. Thank you, Mr. Chairman and members of the 
Committee. My name is Marc Rotenberg. I am president of the 
Electronic Privacy Information Center. I also teach privacy law 
at Georgetown Law Center. I am grateful for the opportunity to 
testify today and also for your interest and the Committee's 
interest in this particular issue.
    No doubt you have been reading the news stories and the 
growing accounts of data breaches affecting bank customers 
across the country. Just recently, Citigroup had to admit that 
more than 360,000 of their customers had their personal 
information improperly accessed. Bank of America was reported 
to have lost customer information, resulting in the loss of 
millions of dollars to their customers, though it took them 
more than a year to acknowledge this.
    The Identity Theft Resource Center reports that in 2010 
there were 662 security breaches; 58 of those occurred at 
financial institutions. And we believe this problem is going to 
get worse. More of our personal information is moving into 
cloud-based services, being stored on remote computing systems. 
Bank customers know less and less about the information about 
them that is being collected or how it is being used, which is 
why data breach notification becomes so very important so that 
customers understand the risks that they have been exposed to.
    This is not just the problem of identity theft, though to 
be sure that is a serious problem. According to the Federal 
Trade Commission, identity theft has been the number one 
concern of American consumers for the past decade. But as we 
learned in the recent Citigroup breach, there is also the 
problem of phishing, which is the use of bits of personal 
information to obtain other bits of personal information. So 
even without the bank account number, to have access to the 
bank account name can be sufficient to then begin the process 
that leads to other types of crimes against individuals.
    Now, in my testimony, I have gone into some detail about 
the current Federal legislation as well as the State laws and 
the White House cybersecurity proposal, and if I may, I would 
like to highlight just a few of the key points now.
    The first thing to be said is that the privacy provisions 
in Gramm-Leach-Bliley do not adequately address these new 
challenges. They do not give customers the type of notification 
that they need to respond when these problems arise. Many of 
the States, we believe, have actually done a good job in trying 
to promote data breach notification so that customers are aware 
of these risks. And, of course, in consideration of Federal 
legislation, we would be concerned about bills that might 
preempt these strong State measures.
    The experience in California, which I describe in my 
testimony, is particularly significant because it was that 
State breach notification law that made is possible for the 
Government to act upon information that the personal 
information on American consumers had actually been sold to a 
criminal ring engaged in identity theft. I think without that 
State law that problem would have never come to light, and the 
authorities would not have been able to pursue the 
investigations.
    Now, turning to the White House cybersecurity proposal, we 
are broadly in favor of many of the recommendations from the 
White House. They have clearly treated this issue as a 
priority, and they have tried to develop a comprehensive 
approach that deals with the many different dimensions of 
cybersecurity. We do not object to the role of the Department 
of Homeland Security in promoting the strengthening of security 
safeguards for American business, but we would caution against 
overreaching because there is always concern that if the 
Government sets technical standards in such areas as intrusion 
detection or intrusion prevention, there is some risk that 
there will be increasing surveillance and monitoring of the 
private communications of American citizens. But as I said at 
the outset, their approach to cybersecurity we think is a good 
one, and it is in a cooperative relationship between the public 
sector and the private sector can help address some of the 
risks that American customers are today experiencing.
    We would also note that there are other bills that have 
been introduced in both the Senate and the House that try to 
establish new safeguards for customers. We think, for example, 
the private right of action is an important right to ensure 
that in the absence of effective oversight by the regulatory 
agencies, individuals who do suffer harm as a result of these 
breaches are given the opportunity to pursue their rights as 
well.
    Finally, in our statement we draw attention to some of the 
new security techniques that we had previously recommended in 
the communications field, and we think they would be helpful in 
the financial sector as well. In particular, the goal of 
minimizing the collection of personal data not only reduces the 
attractiveness of a target to hackers and to others, but when a 
breach does occur, the subsequent damage is limited as well. So 
we continue to promote efforts within the legislative process 
that favor the minimization of data collection.
    Thank you again for the opportunity to testify. I would be 
pleased to answer your questions.
    Chairman Johnson. Thank you, Mr. Rotenberg.
    Mr. Martinez.

 STATEMENT OF PABLO MARTINEZ, DEPUTY SPECIAL AGENT IN CHARGE, 
        CRIMINAL INVESTIGATIVE DIVISION, SECRET SERVICE

    Mr. Martinez. Good morning, Chairman Johnson and 
distinguished Members of the Committee. Thank you for the 
opportunity to participate in this morning's hearing.
    The Secret Service was established as an investigative 
bureau of the Department of Treasury in 1865 in response to the 
proliferation of counterfeit U.S. currency. While most people 
today associate the Secret Service with the protection of the 
President, it was not until 1901 that our agency was charged 
with that mission. Our dual mission of investigations and 
protection has evolved over the course of the last century, not 
because we seek new responsibilities, but because the criminal 
methods used by our adversaries are constantly evolving.
    Over the past decade, Secret Service investigations have 
revealed a significant increase in the quantity and complexity 
of cyber crime cases. Broader access to advanced computer 
technologies and the widespread use of the Internet has 
fostered the proliferation of computer-related crimes targeting 
our Nation's financial infrastructure. Current trends show an 
increase in network intrusions, hacking attacks, malicious 
software, and account takeovers resulting in data breaches 
affecting every sector of the American economy.
    In recent years, the Secret Service has been responsible 
for the arrest of numerous transnational cyber criminals who 
are responsible for the largest network intrusion cases ever 
prosecuted in the United States. These intrusions resulted in 
the theft of hundreds of millions of account numbers and a 
financial loss of approximately $600 million to financial and 
retail institutions, directly impacting the lives of millions 
of American citizens.
    The 31 Electronic Crime Task Forces that the Secret Service 
has established domestically and abroad exemplify the Secret 
Service's commitment to sharing information and best practices. 
Membership in these ECTFs includes more than 4,000 private 
sector partners, nearly 2,500 international, Federal, State, 
and local law enforcement officials and more than 350 academic 
partners. The Secret Service continually develops the technical 
expertise to track down and successfully infiltrate, 
investigate, and prosecute with our partners cyber criminals 
who pride themselves on their knowledge and technical prowess. 
We use this knowledge of criminal networks to adapt our 
response to the challenges posed by financial crimes in the 
21st century.
    A central component of our approach is the training 
provided through our Electronic Crimes Special Agent Program, 
which gives our special agents the tools they need to conduct 
cyber-crime-related investigations. The training we provide, 
however, extends past our own agents to others in the public 
sector. We continue to train State and local law enforcement 
through the National Computer Forensics Institute. The goal of 
this facility is to provide our partners with the necessary 
training not only to understand cyber crime, but to respond to 
any type of cyber-related investigation. Since 2008, we have 
provided training to 932 State and local law enforcement 
officials, prosecutors, and judges.
    Investigations continue to highlight the need for further 
collaboration between the financial services industry and law 
enforcement. In recent years, the Secret Service, in 
collaboration with the Department of Treasury, has briefed 
organizations such as the Federal Reserve Board, the Securities 
and Exchange Commission, the Federal Deposit Insurance 
Corporation, as well as private sector organizations such as 
the Financial Services Information Sharing and Analysis Center, 
Securities Industry and Financial Markets Association, payment 
card processing industry, and the payment card industry on the 
latest trends and threats to their networks and operations. 
These briefings have occurred within the Beltway, but also 
across the country through our nationwide network of Electronic 
and Financial Crimes Task Forces.
    The legislative package proposed by the Administration will 
better equip law enforcement agencies, such as the Secret 
Service, with the additional tools to combat transnational 
cyber crime by enhancing penalties against criminals that 
attack critical infrastructure and adding computer fraud as a 
predicate offense under the Racketeer Influenced and Corrupt 
Organizations Act. With regard to data breaches, it will 
replace the patchwork of State laws governing reporting of 
breaches of personally identifiable information with a uniform 
standard requiring businesses to notify affected individuals 
and the Government if the business suffers a breach.
    Chairman Johnson and distinguished Members of the 
Committee, the Secret Service is committed to our mission of 
safeguarding the Nation's financial infrastructure and will 
continue to aggressively investigate cyber and computer-related 
crimes to protect American consumers and institutions from 
harm.
    This concludes my prepared statement. Thank you for the 
opportunity to testify at this Committee.
    Chairman Johnson. Thank you, Mr. Martinez.
    Professor Streff, you have testified that smaller banks 
know their customers better than large banks, but do not have 
the same resources to spend on protecting customer information. 
How do small banks work to ensure that their customers are 
protected, and what can the Federal Government do to aid these 
small businesses?
    Mr. Streff. Thank you for the question. What small- and 
medium-sized financial institutions do is, really, they comply 
with the IT Examination Handbook, which is ten booklets of 
about 1,000 pages that--it is out there on FFIEC.gov, and they 
put a comprehensive information security program in place that 
starts with risk assessment, identifies business continuity 
issues, pandemic preparedness issues. They hire somebody to 
break into their networks. They scan their networks from the 
inside, a whole host of different programs. Then an independent 
organization comes in and audits and verifies that their 
information security program is, indeed, in and working 
effectively.
    So there is already a lot done in place now. So that is 
where, when we see more and more of these requirements coming 
down, we want to make sure that what the Federal Government can 
do is make sure that what comes out fits nicely with what is 
already there. The FDIC, the OCC, and others work very hard 
with fills and regulatory insights and other pieces of guidance 
to interpret the law and to get it out there in a way that 
these small- and medium-sized financial institutions can 
operationalize effectively.
    Chairman Johnson. For all the panelists, community banks 
and rural banks currently meet stringent data security 
standards. How would the Administration proposal affect 
community and rural banks and their regulatory burden?
    Mr. Pratt. Mr. Chairman, I think, and this really applies 
to anyone who falls under the various laws that I think a 
number of us have talked about here at the table today, what is 
most important is to ensure that if you are a community bank or 
a smaller financial institution, and candidly, even if you are 
one of the largest in the country, that you have some 
continuity in terms of those who are going to examine you. They 
have expertise. They understand how the financial services 
marketplace works.
    So I think it is critically important that you preserve 
that base of knowledge that you have with bank agencies, with 
examination processes, in our case, with the Federal Trade 
Commission, who continues to retain data security 
responsibilities for enforcement of various provisions of the 
Fair Credit Reporting Act, but also Gramm-Leach-Bliley. These 
agencies have that expertise.
    What you would not want is some sort of regulatory overlap 
between what you have today and a DHS designation of a critical 
infrastructure element where a bank or--small or large--has to 
struggle with yet another set of requirements which may not 
necessarily advance the ball in terms of security, but just 
will necessarily require them to comply with, potentially, two 
different competing approaches to security. So I think that 
alignment issue we talked about before is very important.
    Chairman Johnson. Anybody else?
    Mr. Williams. Mr. Chairman, I certainly believe in 
everything that Professor Streff and Mr. Pratt have said about 
alignment. That is absolutely critical.
    We see the proposal as doing two new things. One is it 
better aligns what already happens in financial services, which 
admittedly is imperfect, is evolving, and which continues to be 
improved at both the institution and at the industry level, but 
now could be better connected with the rest of the ecosystem 
with efforts at the Internet Service Providers, the software 
manufacturers, with what happens out at our customers' PCs. We 
believe that the overall ecosystem approach contemplated in 
this new proposal begins to connect these existing safeguards 
in our industry to what needs to happen throughout the 
ecosystem.
    The second major change is that it is not only across 
industries, but it is across the public and private sectors. So 
Federal systems are also covered. Information sharing with the 
Government is also covered. We think there would be much better 
collaboration between institutions and industry and Government 
partners that can bring expertise and resources to the table.
    Chairman Johnson. What are the witnesses' views on the 
effectiveness of the Federal financial regulators under this 
Committee's jurisdiction in administering laws affecting data 
protection and data security? Anybody?
    Mr. Rotenberg. My view, Mr. Chairman, is that the laws 
currently in place do not provide adequate protection to bank 
customers, particularly in light of some of the recent security 
breaches that have been so widely reported. We make several 
recommendations for how those laws might be strengthened, but 
we also point out that as the law was written, it operated as a 
Federal baseline and that allowed the States to regulate upward 
where they saw the need to do so. We think that is a good 
approach. We think it allows the States to put in place 
stronger safeguards and to continue to innovate as some of 
these new challenges emerge.
    Mr. Williams. Mr. Chairman, if I might, I absolutely agree 
with Mr. Rotenberg's comment that GLB and some of the other 
regulations are largely established as a baseline. But rather 
than think about State intervention to move higher, we tend to 
think of self-regulatory and business practices as pushing 
practices well beyond that baseline. So if, as part of this 
initiative, or if, as evolving regulation raises the bar, we 
also very much will focus on institutions and industries 
stepping in and voluntarily raising the bar in what we think is 
the most dynamic approach.
    Mr. Streff. If I could comment, as well, I think the 
comprehensive approach will promote consistency. If the breach 
happens at the bank, then the notification will happen a 
certain way. If it happens at a credit union, it will happen a 
certain way. If it happens at a trusted vendor, it will happen 
a certain way. If it happens at a merchant or a small business 
as part of a corporate account fraud that we are seeing, it 
happens a certain way. I would think that the consumers today 
are confused with when they are notified, how they are 
notified, due to the inconsistencies and the lack of a 
comprehensive approach.
    Mr. Martinez. Chairman Johnson, I would agree with the 
comments made here today. Working data breach cases for over 5 
or 6 years now, we have seen all the different levels of 
financial institutions that have been victims of data breaches, 
and I believe a uniform standard across the Nation would be a 
more effective way of moving forward.
    I also believe that it is incumbent on businesses to notify 
victims that have been--or individuals that have been 
victimized from a data breach and also to notify law 
enforcement. I think it is important that we try to do a 
coordinated effort when moving forward on some of these data 
breach investigations.
    Mr. Pratt. Mr. Chairman, I would just like to add, this 
uniformity is critically important and I would agree with Mr. 
Williams' statement that industry itself is deeply motivated to 
protect the information that it has and they design multiyear 
budgets to build out, not just simply to sustain or to meet the 
minimal baseline, but to develop the best systems that industry 
can buy. But it is critically important that we are able to 
build these on the nationwide basis.
    That is just not important for the largest companies, but 
it is also important, actually, for the smaller companies that 
want to compete on a regional or super-regional basis. The more 
complicated the statutory structure is, the more difficult it 
is for them to have the resources to even approach compliance 
on a State-by-State basis. So CDI has been on record as very 
supportive of a national standard for data breach notification, 
for example.
    Chairman Johnson. Senator Reed.
    Senator Reed. Well, thank you very much, Mr. Chairman. 
Thank you, gentlemen, for your excellent testimony. Let me just 
raise a few issues.
    Professor Streff, you pointed out or suggested in your 
comments that the location of data centers here versus overseas 
tend to build a level of protection because of our laws, but it 
raises a larger question of the international application of 
any of the standards we develop and a related question of we 
could have a very sophisticated national regime of protection, 
but if it is an international economy, the back doors could be 
elsewhere. So I wonder if you could comment and then ask your 
colleagues on the panel to comment on that.
    Mr. Streff. Sure. Thank you. I like the Administration's 
proposal of identifying and prioritizing critical 
infrastructure protection, critical infrastructure that we 
depend upon, and then, based on that, making decisions 
regarding protection. Certainly, offshoring data centers and 
not controlling physical security, the differences in the 
different laws, privacy and security laws of different nations, 
you know, weave the fabric and make it even more difficult. So 
I know that the proposal addresses the data centers here in the 
U.S. and being careful about offshoring that kind of activity, 
and the National Center for the Protection of the Financial 
Infrastructure certainly agrees.
    Senator Reed. Let me just add another sort of level. Is it 
feasible, practical, to insist that we have jurisdiction--if it 
is an American entity that has set up the center overseas, that 
we have jurisdiction and that we can at least inspect, 
investigate, and correct? You might want to comment, and then I 
will turn it over to the rest of the panel.
    Mr. Streff. You know, I guess from a legal perspective, I 
will leave that to our Georgetown colleague, but certainly from 
our perspective, what we are seeing is there are certainly ways 
that you can audit those kinds of organizations, just like they 
do here in the U.S. in terms of, like, service providers and 
data aggregators and things like that. In terms of the legal 
aspects, I guess I would leave it to my colleague.
    Senator Reed. Mr. Pratt, and then we will go right down and 
we will definitely get the Georgetown connection.
    Mr. Pratt. Today, if we look at Title 5 of GLB today as an 
example of a data security regime, it applies to the practices 
of that financial institution, our members included, wherever 
we may locate that data center. I know even the CDIA has stood 
up several different data centers, and even here in the U.S., 
we look at different power grids. We try to separate the back-
up system from the primary with power grid differences. We look 
at plate tectonics to see if we have them on the same 
earthquake fault line or not, these sorts of things.
    And candidly, whether it is overseas or whether it is here 
in the U.S., the U.S. law applies to the U.S. business. And, in 
fact, all of those requirements that the Professor just 
outlined, you know, the physical security, the employee 
training, the technology that has to be deployed, all the 
requirements of the Title 5 apply and the examination powers 
and the bank agency powers and the Federal Trade Commission 
powers apply.
    So I am not sure whether it is in the West Coast or the 
East Coast or just off of one of those two coasts makes a 
difference in terms of data centers. The key is to make sure 
the data centers are managed properly and those risks are 
assessed and accounted for.
    Senator Reed. Mr. Williams, shortcomings?
    Mr. Williams. I wish Mr. Pratt would say something I could 
disagree with, but I cannot disagree with that. Our financial 
institutions are already accountable for what happens at their 
direction, whether it is at a service provider or in their own 
subsidiaries, whether it is within the U.S. borders or outside 
the U.S. borders. They are held accountable by their 
regulators, and on the jurisdiction question, they should be 
held accountable by this Committee.
    We believe that the same logic should apply outside of 
financial services. So if this proposal or some proposals like 
it begin to address cybersecurity in the ecosystem, all players 
should be accountable for what happens at their direction 
inside or outside the U.S. borders, inside or outside of their 
legal ownership.
    One of the stipulations in the cybersecurity proposal 
offered by the Administration takes State data centers and says 
that there may be no restrictions in the borders among the U.S. 
States. We believe that because we need this ecosystem-level 
protection, that should be extended even beyond the U.S. 
outside to international operations.
    Senator Reed. Professor, but I just want to throw in 
another issue here, too, not to go into really complicated 
things, but you refer in your testimony to the effectiveness of 
State laws, and there was a colloquy back and forth with the 
Chairman about the need for a national standard. I have seen 
sort of this debate in many different contexts, and a national 
standard is terrific if it is tough and strong and reaches all 
the players. It is less effective--and we saw this particularly 
in the case of predatory lending--when the national standard is 
rather low and State standards, much more effective, are 
legally sort of avoided under Federal regulatory preemption. So 
you might want to comment on that in this context, too.
    Mr. Rotenberg. Senator, these are the two critical issues. 
With respect to preemption, I certainly appreciate the position 
of the business groups. I am sure that a national standard 
would be easier to administer, but I think it is very important 
to look at the practical effect when a low national standard 
removes higher State safeguards. And even the States themselves 
have learned that they do not always get it right the first 
time. That very good California breach notification law covered 
only financial institutions. They had to come back and update 
the law to deal with medical record information when they 
realized they would have a problem there. So that is another 
reason I would urge caution on a Federal standard that ties the 
hands of the States.
    Now, the other question you raise, Senator, is also key in 
this area. We are in a global economy with global businesses. 
Particularly with the Internet, people are purchasing products 
all around the world and a lot of customer data moves around 
the world, particularly now that we have cloud computing 
services that are offered in many different jurisdictions.
    We have actually worked with the Administration to urge the 
development of a comprehensive framework for privacy 
protection, and there is interest. In fact, part of the White 
House cybersecurity strategy talks about the need to strengthen 
privacy safeguards for commercial data flows, particularly 
between the United States and Europe. We hope they will go 
further for many of the reasons that you have outlined. The 
Europeans are also concerned about what happens to their 
financial data. There is a need to establish there a common 
framework with clear legal protections. And I think what you 
are reading now about the data breaches, of course, it is not 
just customers in the U.S., it is people all around the world.
    Senator Reed. Agent Martinez.
    Mr. Martinez. Senator Reed, from a law enforcement 
perspective, storing data overseas does pose a challenge. For 
example, look at it from the point of view of a crime scene. 
Now we have a crime scene, and instead of just being located 
within the United States, it is located in different parts of 
the world, posing challenges to the type of legal process that 
we could utilize to obtain that information. Is there legal 
process in that country where I seek that information that is 
pertinent to my case? How long will it take me to obtain that 
information? I now might have to do what is referred to as a 
Mutual Legal Assistance Treaty Request to that specific 
country.
    The violation that I am investigating the criminal for, is 
that a covered violation within that country's legislative 
process? We have been encouraging our international partners to 
join in the Budapest Crime Convention because it talks about 
establishing cyber crime legislation like this throughout 
different countries around the world. But it does pose 
challenges to us and it makes it much more difficult and it 
takes more time for us to obtain that information.
    There are extraterritorial violations, for example, even in 
the area of identity thefts. Credit card fraud has an 
extraterritorial section to it where we can use that part of 
the statute to prosecute people who commit credit card fraud 
using U.S. accounts domestically. But I think it is a challenge 
that will be tested here sooner rather than later.
    Senator Reed. Thank you, gentlemen. Thank you, Mr. 
Chairman.
    Chairman Johnson. Senator Menendez.
    Senator Menendez. Thank you, Mr. Chairman. Just to show you 
how timely these issues are, Mr. Chairman, as we are speaking, 
a widespread phishing campaign is being targeted on Senate 
staff with a false IRS statement that if you open up downloads 
a malicious link. So this is a constant challenge, and 
including the United States is not immune from it.
    Mr. Williams, let me ask you, I look at the number of 
attacks that have taken place, particularly in the last 6 
years. There have been 288 publicly disclosed breaches at 
financial service companies that exposed at least 83 million 
customer records. And I am wondering, what is your view from 
the industry perspective as to what is the fiduciary duty here 
by these institutions to notify their customers in a timely and 
efficient fashion?
    Mr. Williams. There is no doubt in my mind that 
institutions have a fiduciary responsibility, they have a 
commercial responsibility, they have compliance 
responsibilities, and that they take all of those very, very 
seriously. We do an enormous amount of work with member 
institutions on preventing breaches and ensuring that when they 
do occur, they are absolutely responded to as quickly and as 
completely as possible.
    Senator Menendez. Do you think a month to notify customers 
is an appropriate time frame?
    Mr. Williams. I think that as soon as an institution 
understands what has occurred, they have an obligation to 
notify their regulators under regulatory rules and they have a 
fiduciary and a business responsibility to notify customers if 
there is any way that those customers can begin to take action 
to protect themselves.
    Senator Menendez. All right. I appreciate that answer, 
because from what I can perceive of Citi's response, that was 
not the case, as is evident by just the personal story I 
related before. It took a lot more time, and that does not 
allow people to protect themselves.
    Agent Martinez, is not information and notification one of 
the essential elements for someone to try to limit the scope of 
the damage done to them once they know they can act?
    Mr. Martinez. Yes, sir. I believe the Administration 
proposal calls for a certain time frame by when victims have to 
be notified. I think it is also important to realize that, when 
it comes to law enforcement's investigations, a more clear, 
concise, and exact set of events for the financial institution 
to know what exactly has happened and to be able to relay that 
to the law enforcement organizations in an efficient and 
effective way helps us significantly, instead of getting dribs 
and drabs of information.
    So although I do not think--I agree with you that 
notification needs to be made as soon as possible, we would 
like a clear and concise picture of what they have, and I think 
the Administration's proposals on data breach lay out specific 
time lines that we think is enough time for institutions to 
have that information.
    Senator Menendez. Well, I look at NASDAQ, World Bank, Citi, 
just to mention some, and I wonder whether there is anyone on 
the panel who wants to give an opinion as to whether or not 
financial institutions are seriously taking the challenge 
before them and making the appropriate investments in trying to 
protect against cybersecurity attacks.
    Mr. Williams. I can assure you, they absolutely are taking 
it seriously. They are investing tens of billions of dollars at 
an institutional level and at an industry level. I cannot 
promise you that there will never be another breach in 
financial services, but I can tell you that we constantly 
improve our ability to repel these attacks and we constantly 
improve our ability to protect against inconvenience and any 
financial loss on the part of customers or institutions. We are 
getting better and better at this every single day.
    Senator Menendez. Mr. Rotenberg.
    Mr. Rotenberg. Senator, I wish I could agree with my 
colleague, but I think the experience of consumers today is 
actually very different. It may be the case that financial 
institutions are spending a lot of money to safeguard this 
data, but what consumers are seeing are more and more breach 
notifications, more and more warnings that their credit card 
information is in the hands of others, more and more 
recommendations that they may need to change their bank account 
numbers.
    We have a problem, and this problem is getting worse. I do 
not mean to suggest that passing legislation is going to solve 
it. I think it will help make clearer the scope of the problem 
and make possible some other approaches. But I do not think we 
can overstate quite how serious today the problem of data 
breach is in the United States.
    Senator Menendez. Mr. Pratt, did I see you wanting to 
comment?
    Mr. Pratt. I would just--I would add, first of all, I think 
some of the examples you have given are very helpful for all of 
us because different breaches have occurred in different ways. 
Where there is a phishing attack or where you are fooled into 
clicking on an executable file that then scans your hard drive, 
this is different than a cyber attack against a Web site.
    Our own members, for example, have had to develop Web sites 
for expatriates to access certain data here in the U.S. and 
that entire data network is separate from the U.S.-based 
system, which is a significant investment to create entire 
duplicate systems, and that is all for that very reason of 
trying to protect data and to ensure that the higher risk that 
we have from foreign access is balanced against the domestic 
risk.
    So I would agree with Mr. Williams. There are enormous 
investments. It is a constant moving target, as you know. You 
are very experienced with this. You have the bills in place to 
look at this. We are constantly sharing with information 
sharing and analysis centers to try to understand what other 
financial institutions have experienced in order to learn from 
that, in order to better our own systems, in order to take the 
next step to anticipate what the risk is. So it is a moving 
target challenge. It is a challenge for small retailers who may 
lose credit card account numbers, not because the bank has 
failed but because the retailer may have failed in that case to 
protect the information at the retail level. There are some 
older breach examples where some retailer systems were storing 
data that they should not have been storing based on guidance 
that was out there.
    We have to unpack all of these fact patterns. We have to 
learn from these fact patterns. We have to make better 
decisions going forward. We believe that we are.
    Senator Menendez. Well, I thank you, and let me, Mr. 
Chairman, let me just close by saying, I hope some of you will 
look at the Cybersecurity Enhancement Act that we are offering. 
We think it is an opportunity to do research and development, 
bring the three entities, the National Science Foundation, 
Department of Homeland Security, and Department of Defense 
leading in the Federal perspective, and then seek to 
commercialize that so that we can have institutions look at it.
    But the one thing that I am still alarmed at--I know this 
is a moving target, but the one thing I am still alarmed at is 
timely notice to customers. I think it is essential for a good 
business relationship, certainly it is essential for the 
consumer, and I would like to see an industry response to that. 
But in the absence of it, there will be some of us who will 
consider legislative responses.
    Thank you, Mr. Chairman.
    Chairman Johnson. Senator Merkley.
    Senator Merkley. Thank you, Mr. Chair.
    I think I am going to follow up on this consumer 
notification. More and more citizens have had the experience of 
receiving a letter saying that there was a breach of data at 
our institution and your records may have been among the 
records lost. This certainly happened with my wife through her 
place of employment, and some of these breaches have been 
through Web sites being hacked, but others are as simple as 
information left on laptops that were stolen out of cars and 
things of this nature, and it is not always clear in whose 
hands this information is going to end up in.
    Oregon has adopted some provisions related to this, but I 
just wondered, and maybe, Mr. Rotenberg, you would like to kick 
this off, are there States that have a particularly successful 
model that should recommend itself to our examination here?
    Mr. Rotenberg. Well, Senator, California tends to be on the 
front lines of these issues, and I think their efforts not only 
in establishing early on a breach notification requirement and 
then updating it has been successful, other States, as well. 
But as I spoke with some of the consumer experts prior to this 
hearing, they made additional recommendations. It would be 
helpful, example, I think, when a person receives one of these 
notifications to actually be told by the institution what the 
institution has done to correct the problem. If we think about 
it for a moment, when someone has had a problem that affects 
us, we want to be assured that it will not be repeated in the 
future. So I think actually saying explicitly what the 
institution is doing to ensure that the problem will not be 
repeated would be a good step.
    Also, with respect to credit card information, you know, 
the current system in the U.S. allows people to get access to 
the credit card information of others unless they have 
explicitly chosen to freeze the access. You might think of this 
as the difference between opting out versus opting in. A number 
of States are moving toward these freezes on credit card 
information which gives individuals the ability to say if, for 
example, they are shopping for a car, OK, now you can look at 
my credit record information, but otherwise, I do not want 
other people to be looking at our credit record information, 
and I think this is another innovative approach that would be 
worth looking at.
    Senator Merkley. So some of the things that were discussed 
in Oregon, and I would have to go back and see what all was 
adopted, but it was also kind of a protocol for responding to 
customers whose data has been breached, kind of providing them 
with the tools that they need, the access that they need in 
order to be able to monitor. OK, credit card information was 
stolen, but what help can they get in fast detection of someone 
misusing that information? Is that part of the California 
model?
    Mr. Rotenberg. Yes, and I should mention, also, the Federal 
Trade Commission has put together very good resources that are 
available on the FTC Web site to help consumers who have been 
the victims of identity theft. But I have to say, I think, 
also, people are just becoming very frustrated. It takes time 
to walk through these steps. There is no necessary assurance 
that if you have done everything you are supposed to do, you 
might still not find an improper charge somewhere down the 
line.
    And so I think we actually need to be thinking more long-
term about how to minimize the risk when the breach occurs, 
which is the reason why in my testimony I talked in some detail 
about this concept of data minimization. For example, Social 
Security numbers. I mean, for a long time, it has been 
understood that Social Security numbers should not be widely 
available because they are too frequently used as passwords. 
Yet you have the case today that health club members are 
required to provide Social Security numbers to join the health 
club, which seems to create an unnecessary risk.
    Mr. Streff. Senator, if I could comment, as well, you know, 
I think if you--most of the State laws exempt financial 
institutions. And if you really take a look at when this 
happens, there is a tremendous cost, like, to the small- and 
medium-sized financial institution. The Ponemon Institute 
publishes that it is about $202 a data record that is breached. 
So if you are a small financial institution, you have got a 
thousand customers, you can do the math. That is fairly 
significant. And I am not minimizing this.
    I would encourage the Administration, as they are looking 
at this, it seems to me that this gets minimized all the time, 
so I am glad to hear you folks talking about this. The Epsilon 
attack, to me, is a good example of how this gets minimalized. 
If you read the press clippings on that one, thankfully, all 
that was stolen were email addresses and names. Now, does that 
require data breach notification, because it is not Social 
Security numbers, it is not financial account numbers. That is 
a serious issue when email addresses with names are disclosed, 
because that sets up phishing attacks and that sets up all 
other kinds of attacks. So I would encourage the Administration 
to think that through as they are drafting policy.
    Senator Merkley. So, Professor, to go back to your point, 
you said the cost to a small business of addressing the loss of 
data, the average is $200 a customer?
    Mr. Streff. Two-hundred-and-two dollars, sir. If you really 
take a look at do you cut up the cards, do you issue new 
account numbers, do you provide fraud detection services, you 
know, all those kinds of things, the Ponemon Institute has 
``mathed'' [phonetic] that out to $202 a data record.
    Senator Merkley. I am over my time, but I will ask more 
questions if we continue this.
    Chairman Johnson. Please proceed with your questions.
    Senator Merkley. Thank you very much, Mr. Chair.
    I want to shift a little bit to the issue of liability. 
Recent courts have come down on both sides of the issue of bank 
liability for data theft, some saying banks are not liable if 
they meet the minimum regulatory standard, others finding 
higher duties to customers. So I would just open this up to any 
of you who would like to comment. How should liability be 
configured to maximize cybersecurity protections while 
minimizing litigation uncertainty?
    Mr. Williams. Many of our member institutions see their 
responsibilities to customers not in terms of legal liability 
but in terms of the relationship that they have built with 
these people. I think whether, for example, they are required 
to or not, they do everything in their power to minimize, often 
to zero, generally to zero, the risk of customers, especially 
at the retail level, in breaches or in other cybersecurity 
incidents. There has been some talk about whether that 
protection that retail customers enjoy, sometimes voluntarily, 
sometimes under regulation, should be extended to commercial 
customers, some of whom look and act a little bit like retail 
because they are smaller or because of the way that they 
operate.
    We would be reluctant, I think, to see that put into rule 
or statute. There is this bright line between individuals and 
institutional clients, and there are already under the banking 
regulations ways that those two entities or classifications of 
entities are treated differently. We do what we can to ensure 
that individuals are protected and to ensure that their 
financial losses are managed to zero, and we do what we can on 
the institutional side, but the protections are a little 
different and the liability scheme may also be appropriately 
different.
    Senator Merkley. Mr. Williams, how do you, in general, how 
do people who have small home businesses, if you will, the 
small businessman who is a Chapter S Corporation, they are 
simply--their money comes through their personal taxes--are 
they viewed as an institution in that framework or as an 
individual?
    Mr. Williams. We tend in most institutions to think of it 
based on the type of account that they have. So if they have a 
personal account, they are treated as individuals. If they have 
a business account, then we treat them under the law as 
business customers.
    Senator Merkley. OK. Thank you.
    Anyone else on this liability, kind of the need to have 
some certainty over litigation exposure versus working to make 
sure that it is made right when there is a breach?
    Mr. Rotenberg. Well, Senator, I think the economists would 
say that the liability should be assigned to the least cost 
avoider, which is to say the institution that is in the best 
position to minimize the risk. And this is an important 
principle, because when you think about the customer who gives 
over the information to the financial institution, they 
actually at that moment have lost the ability to control the 
subsequent use of the data they have provided. This is, as Mr. 
Menendez says, this creates the fiduciary obligation that the 
financial institution now has, and that is one of the reasons 
that I think it is so important that that risk be shifted from 
the individual, because they are simply not in a position to 
reduce subsequent risk of misuse.
    Mr. Pratt. Senator, I would only suggest that--in fact, we 
have this in our written testimony--that one of the successes 
of the data safeguards rules is that they are administratively 
enforced. That does not mean that they are passively 
administratively enforced. That is an aggressive program, as we 
discussed before, examination processes and the Federal Trade 
Commission uses CID processes and so on to do that. In the case 
of Fair Credit Reporting Act, State Attorneys General also have 
the ability to enforce the law.
    What we would like to avoid, however, is almost a division 
of the country circuit by circuit. There are other places in 
our membership where we have companies that actually have to 
comply with certain requirements because circuit by circuit 
decisions have actually divided the country and it makes data 
security less effectively administered, or some other kind of 
compliance program less effectively administered.
    So our argument is not for ineffective administrative 
powers, but just simply to ensure that if there is an 
administrative power, that it is uniform and applied across the 
country, and you just simply cannot accomplish that if you are 
going to have, for example, a private right of action that 
would begin to divide the country into circuits. So we need 
that uniformity in order to be successful. We want to be 
successful. We want that data protected. And we also want to 
notify consumers where data has been lost or stolen and we know 
that we have a responsibility to make sure that consumer is 
made whole.
    Mr. Streff. You know, I think it is fairly risky business 
to be Reg E-ing corporate accounts. This is my perspective. You 
know, in my research, as I mentioned, seven out of ten small 
businesses lack the basic security controls of access control 
or a firewall or antivirus, basic stuff that we all should have 
on our home environments and certainly in our business 
environments. Because of those deficiencies, corporate account 
fraud is occurring. The keys are laying there on the small 
business desk and the crooks are picking them up and simply 
logging into the bank and doing nefarious activity. So I think 
we want the accountability at the corporate account at the 
small business, and shifting that to the bank, I am not sure if 
that is where the real issue lies.
    Senator Merkley. So do you see a difference between fraud 
that stems from people leaving the keys on the home desk versus 
fraud that occurs because of a central data base in an 
institution is hacked or records are copied onto a personal 
computer and stolen or something of that nature?
    Mr. Streff. I certainly do, and I think the courts are 
trying to sort of figure out where those lines are. The EMI 
America case that just was announced, the decision last week, 
where it is trying to draw some of those lines about the 
definition of what is commercially reasonable security, you 
know, I think that that is what the courts are trying to figure 
out, and without further policy on that, I think the courts 
will struggle to interpret that.
    Senator Merkley. I want to shift gears. I have one more 
question if there is time for it.
    Chairman Johnson. Yes.
    Senator Merkley. This is related, although it is a bit 
afield from the immediate conversation, but this is related to 
issues that derive from changes in technology and mobile 
banking. One of the things we have started to see more about, 
or at least I have started to see more about, is the issue of 
remotely created checks, or RCCs. The States Attorneys General 
and the Federal Reserve have identified a high incidence of 
fraud, and it is kind of interesting that these remotely 
created checks only require verbal authorization, which is 
undocumented in the process. So that immediately looks like a 
weak link in the system. My understanding is payday loan 
companies tend to be a major user of this, but also fraudsters 
are seeing this as a weak link.
    And so there has not been a lot of response from OCC or the 
Federal Reserve, and I just wanted to get, if any of you have 
any insights on this issue and think it is fine the way it is 
or do we need to modify the system of remotely created checks.
    Mr. Williams. I can tell you that many institutions are 
looking at which of their clients they are comfortable with and 
finding ways to monitor the behavior of those clients. So if 
there are some that are processing remotely deposited checks or 
remotely created checks and they see a pattern of many of those 
checks being returned, our institutions typically will shut 
those customers down and will file suspicious activity reports 
so that they cannot open accounts elsewhere.
    Senator Merkley. Do they still serve an important enough 
role in the system that they should still be allowed, or do we 
have--we have other options and strategies now to do those sort 
of electronic transactions. Are they kind of an anachronism 
that we could just as well do without?
    Mr. Williams. They are an interesting bridge between old 
mechanisms, like paper checks, and new ones, like ACH entries.
    Senator Merkley. Yes.
    Mr. Williams. ----and it may well be that we can evolve 
past them and at some point they will no longer serve a 
purpose.
    Senator Merkley. Anyone else? Any other thoughts on this?
    [No response.]
    Senator Merkley. OK. Well, thank you all very much for your 
testimony. This is an area, certainly, of importance to our 
businesses, our financial institutions, and our citizens.
    Thank you, Mr. Chair.
    Chairman Johnson. I want to thank the witnesses for the 
testimony on this important issue. I think that today's hearing 
yielded some good information for us to review as we consider 
this issue going forward. Thanks again to my colleagues and our 
panelists who have been here today.
    This hearing is adjourned.
    [Whereupon, at 11:14 a.m., the hearing was adjourned.]
    [Prepared statements and additional material supplied for 
the record follow:]

               PREPARED STATEMENT OF CHAIRMAN TIM JOHNSON

    The Banking Committee meets today to hear testimony about data 
protection and cybersecurity issues in the financial sector.
    Over the past 12 years, the Committee has enacted several pieces of 
legislation to protect consumer data held by financial institutions. 
Federal financial regulators under the Committee's jurisdiction have 
issued extensive rules and guidance on data practices that require the 
institutions they regulate to keep data secure, notify customers and 
regulators when breaches occur, authenticate customers, and notify 
customers about how their sensitive information may be used.
    Recent high-profile data breaches at major institutions within the 
financial sector and elsewhere underscore the importance of 
cybersecurity for the American economy. Breaches are disruptive and 
raise the potential for financial fraud, identity theft and, 
potentially, severe threats to our national economic security. This is 
an important issue that deserves the Committee's careful attention and 
continued oversight. Today, I invite the witnesses to share their views 
in three areas:

  <bullet>  The current regulation of data practices affecting 
        financial institutions and their customers;

  <bullet>  The current state of data privacy protection, data breaches 
        and cybersecurity in the financial sector; and

  <bullet>  How legislative proposals, such as the Administration's 
        cybersecurity bill, would affect financial institutions and 
        would interact with existing regulation

    I look forward to the testimony of our witnesses, and to the 
question and answer period.
                                 ______
                                 
                 PREPARED STATEMENT OF KEVIN F. STREFF

 Associate Professor of Information Assurance, Dakota State University 
                      Information Assurance Center
                             June 21, 2011

Introduction
    Chairman Johnson, Ranking Member Shelby, and Members of the Senate 
Committee on Banking, Housing, and Urban Affairs, I am pleased to 
appear before you today on behalf of the National Center for the 
Protection of the Financial Infrastructure (NCPFI) at Dakota State 
University to share our views on the current state of data/
cybersecurity as relating to small- and medium-sized financial 
institutions and what they do well/or not so well. These comments will 
be made within the context of the President's recent proposal regarding 
The Comprehensive National Cybersecurity Initiative (CNCI) which is 
vital to increase America's detection, planning, and response 
capabilities as it relates to attacks on our Nation's critical 
electronic infrastructure.
    My name is Dr. Kevin Streff and I am Director of NCPFI from 
Madison, South Dakota. The NCPFI's mission is to ``advance the security 
and safety of the Nation's financial infrastructure through research, 
education and outreach.'' Started in 2009, the NCPFI has worked with 
academia, the private sector and Government to bring attention to the 
homeland security, critical infrastructure and cyber risks associated 
with the electronic infrastructure which runs the financial industry. 
The work of NCPFI is funded by the State of South Dakota, NSF, DoD, 
DHS, Cheneega Logistics, and other Federal and private entities. We 
appreciate the invitation to appear before the Committee on this 
important issue, and thank the Committee for their leadership and 
foresight in dealing with these issues before a crisis state.

Background
    Every day cyber criminals are scanning Government, academic, and 
industry networks for nonpublic information they can steal. Large 
corporations have in-house IT departments to protect their systems and 
customer data. Small- and medium-size financial institutions (SMFIs) 
and small- and medium-sized businesses (SMEs) businesses do not.
    Furthermore, Presidential Decision Directive 63 deemed the 
financial services sector a critical cyber infrastructure which America 
depends upon every day; however, small- and medium-sized financial 
institutions are under heavy cyber attack and lack the requisite skills 
and resources to combat these cyber threats. Without an understanding 
of the risks each institution incurs and a capability to deploy 
solutions to mitigates these risks, it is unlikely decision makers in 
these SMFIs will win the battle against cyber thieves.
    In this testimony, we will review the current legal and regulatory 
environment in which small- and medium-sized financial institutions 
must operate (SECTION I), discuss security and privacy experiences in 
the financial services sector that have impacted small- and medium-
sized financial institutions (SECTION II), and discuss how the 
Administration's cybersecurity bill will interact with existing 
regulation and affect SMFIs. Some additional ideas and concerns are 
noted for the President to consider as it relates to the Comprehensive 
National Cybersecurity Initiative (SECTION III).

SECTION I. Overview of Current Data Protection Laws, Regulation, and 
        Policy Statements in Financial Services
            A. Financial Industries Modernization Act of 1999 (Gramm-
                    Leach-Bliley)
    The Gramm-Leach-Bliley Act (GLBA) 15 U.S.C. 6801-6810 (disclosure 
of personal financial information), 15 U.S.C. 6821-6827 (fraudulent 
access) repealed the Glass-Steagall Act of 1932, and is part of broader 
legislation which removes barriers to banks engaging in a wider scope 
of financial services. GLBA applies to financial institutions' use and 
disclosure of nonpublic financial information about consumers. Section 
501(b) requires administrative, technical, and physical safeguards to 
protect covered nonpublic personal information. Federal banking 
agencies have published Interagency Guidelines Establishing Standards 
for Information Security for financial institutions subject to their 
jurisdiction. 66 Fed. Reg. 8616 (February 1, 2001) and 69 Fed. Reg. 
77610 (December 28, 2004). The Guidelines are published by each agency 
in the Code of Federal Regulations, including:

  <bullet>  Federal Deposit Insurance Corporation, 12 C.F.R., Part 364, 
        App. B;

  <bullet>  Office of the Comptroller of the Currency, 12 C.F.R., Part 
        30, App. B;

  <bullet>  Board of Governors of the Federal Reserve System, 12 
        C.F.R., Part 208, App. D-2 and Part 225, App. F;

  <bullet>  Office of Thrift Supervision, 12 C.F.R., Part 570, App. B; 
        and

  <bullet>  National Credit Union Administration, 12 C.F.R., Part 748

    The Federal Trade Commission has issued a final rule, Standards for 
Safeguarding Customer Information, 16 C.F.R. Part 314, and the 
Securities and Exchange Commission promulgated Regulation S-P: Privacy 
of Consumer Financial Information, 17 C.F.R. Part 248 for financial 
institutions within their respective jurisdictions.
    GLBA requires financial institutions to disclose privacy notices to 
all customers, and provide a means for customers to opt out of the 
sharing of information with third parties. However, it is 6801, 
``Protection of Non-Public Personal Information'' that contains the 
most sweeping provisions, by requiring each regulatory agency to:

        Establish appropriate standards for the financial institutions 
        subject to their jurisdiction relating to administrative, 
        technical, and physical safeguards to:

  1.  Insure the security and confidentiality of customer records and 
        information;

  2.  Protect against any anticipated threats or hazards to the 
        security or integrity of such records; and

  3.  Protect against unauthorized access to or use of such records or 
        information which could result in substantial harm or 
        inconvenience to any customer.

    These requirements mean that all financial institutions must 
develop, document and operationalize a comprehensive information 
security program. The administrative, technical, and physical 
safeguards are sweeping and expansively interpreted by Federal and 
State regulators to include everything from the physical security of 
buildings, data security at service providers, to the types of 
authentication used during online banking sessions. Each bank must 
report annually to the Board of Directors on the status of the 
information security program.
    The Guidelines require a risk assessment designed to: ``identify 
reasonably foreseeable internal and external threats'' to customer 
information, assess the likelihood and potential damage of these 
threats, and to assess the effectiveness of a wide variety of 
information security controls. GLBA is significant because of the 
extensive requirements and regulatory oversight imposed upon the 
financial industry and carried out by Federal and State regulators.
    The Interagency Guidelines Establishing Information Security 
Standards includes a provision to implement a notification program to 
notify customers, regulators and law enforcement officials of data 
breaches. The regulations promulgated to implement the response program 
have been codified as Supplement A to Appendix B of 12 C.F.R. Pt. 30. 
``[E]very financial institution should . . . develop and implement a 
risk-based response program to address incidents of unauthorized access 
to customer information in customer information systems'' regardless of 
whether the breach occurs in the financial institution's own computer 
systems or those hosted by third party service providers.
            B. Bank Secrecy Act
    In 1970, Congress passed the Bank Secrecy Act (BSA). BSA requires 
U.S. financial institutions to assist U.S. Government agencies to 
detect and prevent money laundering. The act specifically requires 
financial institutions to keep records of cash purchases of negotiable 
instruments, file reports of cash transactions exceeding daily 
aggregate amounts of $10,000, and to report suspicious activity that 
might signify money laundering, tax evasion, or other criminal 
activities. Several anti- money laundering acts, including provisions 
in title III of the USA PATRIOT Act, have been enacted up to the 
present to amend the BSA. (See, 31 USC 5311-5330 and 31 CFR Chapter X 
(formerly 31 CFR Part 103)). The documents filed by financial 
institutions under BSA are used by law enforcement agencies, both 
domestic and international to identify, detect and deter money 
laundering whether it is in furtherance of a criminal enterprise, 
terrorism, tax evasion, or other unlawful activity.
            C. USA PATRIOT Act
    The USA PATRIOT Act (Patriot Act), enacted by President George W. 
Bush in 2001, reduced restrictions on law enforcement agencies' ability 
to search telephone, email communications, medical, financial, and 
other records; eased restrictions on foreign intelligence gathering 
within the United States; expanded the Secretary of the Treasury's 
authority to regulate financial transactions. Section 314(b) of the USA 
PATRIOT Act permits financial institutions, upon providing notice to 
the U.S. Department of the Treasury, to share information with one 
another in order to identify and report to the Federal Government 
activities that may involve money laundering or terrorist activity. 
More specifically, the BSA authorizes the Treasury to require financial 
institutions to maintain records of personal financial transactions 
that ``have a high degree of usefulness in criminal, tax and regulatory 
investigations and proceedings'' and to report ``suspicious transaction 
relevant to a possible violation of law or regulation.'' Again, because 
The Patriot Act deals with governmental, rather than private, intrusion 
into customer privacy, it is outside the scope of this discussion.
            D. Identify Theft Red Flags Rule
    The Identify Theft Red Flags Rule (Red Flags Rule) requires 
financial institutions to implement a written Identity Theft Prevention 
Program that is designed to detect the warning signs of identity theft 
in their daily operations. By identifying red flags in advance, 
financial institutions will be better able to identify suspicious 
patterns that may arise, and take steps to prevent a red flag from 
escalating into identity theft.
    A financial institutions' Identify Theft Red Flags Program should 
enable the organization to:

  1.  Identify relevant patterns, practices, and specific forms of 
        activity--the ``red flags''--that signal possible identity 
        theft;

  2.  Incorporate business practices to detect red flags;

  3.  Detail appropriate response to any red flags you detect to 
        prevent and mitigate identity theft; and

  4.  Be updated periodically to reflect changes in risks from identity 
        theft.

    Shortly thereafter, regulatory agencies began issuing examination 
procedures to assist financial institutions in implementing the 
Identity Theft Red Flags, Address Discrepancies, and Change of Address 
Regulations, reflecting the requirements of Sections 114 and 315 of the 
Fair and Accurate Credit Transactions Act of 2003.
            E. Sarbanes-Oxley Act of 2002
    The Sarbanes-Oxley Act of 2002 (SOX) was enacted to restore 
confidence in the integrity of the financial reporting process at 
publicly traded companies, influenced by high profile accounting 
scandals at firms such as Enron and WorldCom. However, each publically 
traded financial institution that is affected by the Sarbanes-Oxley Act 
has some level of reliance on automated information systems to process, 
store and transact the data that is the basis of financial reports, and 
SOX requires financial institutions to consider the IT security 
controls that are in place to promote the confidentiality, integrity, 
and accuracy of this data. SOX states that specific attention should be 
given to the controls that act to secure the corporate network, prevent 
unauthorized access to systems and data, and ensure data integrity and 
availability in the case of a disaster or other disruption of service. 
Also, each system that interfaces with critical financial reporting 
data should have validation controls such as edit and limit checks 
built-in to further minimize the likelihood of data inaccuracy.
            F. Payment Card Industry Standard
    The Payment Card Industry Security Standards Council is an industry 
group formed to manage and maintain the Data Security Standard (DSS), 
which was created by the Council to ensure the security of payment card 
information. Sensitive data is involved in card transactions, including 
account number, cardholder name, expiration date, and PIN. The intent 
of the PCI DSS is to ensure that card transactions occurring across 
multiple private and public networks are subject to end-to-end 
transaction security. The payment card industry consists of Card 
Issuers, Card Holders, Merchants, Acquirers, and Card Associations. 
From the collection of card information at a point of sale, 
transmission through the merchant's systems to the acquiring bank's 
systems, then on to the card issuer, the PCI DSS requirements attempt 
to ensure sufficient security safeguards are in place on the card data 
from beginning to the end of a card transaction. Enforcement of the 
security requirements is done by the card associations and through a 
certification process of each association member. The certification 
process is carried out by Qualified Security Assessors (QSA), who audit 
systems and networks to ensure the mandatory controls are in place. 
Certification does not guarantee that an organization will not suffer a 
data breach, as several PCI-certified organizations have suffered data 
breach incidents.
            G. Regulatory Guidance
    The Federal Financial Institutions Examination Council (FFIEC) is a 
formal interagency body empowered to prescribe uniform principles, 
standards, and report forms for the Federal examination of financial 
institutions by the Federal financial regulatory agencies. As such, the 
FFIEC publishes the ``Information Technology Examination Handbook'', 
which is used by banking regulators in executing examinations of 
information technology and systems of financial institutions. The 
Handbook includes ten (10) booklets, one of which is the ``Information 
Security Booklet'', which provides a baseline against which a financial 
institution subject to GLBA can be evaluated. The ``Information 
Security Booklet'' attempts to provide a high level, comprehensive 
overview of the major types of information security controls one would 
necessarily expect to be operating effectively within a financial 
institution. The types of controls are not limited in applicability to 
just financial institutions, and are derived from the same principles 
underpinning all major information security frameworks.
    Further, each regulatory agency produces further guidance for their 
financial institutions. For example, FDIC FIL-103-2005 Authentication 
in an Internet Banking Environment established single factor 
authentication (such as a User ID and password) as necessary but 
insufficient in logging users onto electronic banking systems, 
requiring the use of an additional factor to establish identity. This 
FIL involved industry investing in multifactor authentication 
solutions, vendors leveraging these solutions in their systems, and 
financial institutions operationalizing them. A second example is 
Corporate Credit Union Guidance Letter 2010-01 dated July 8, 2010, 
entitled ``Confidentiality and Protection of Sensitive Data''. The OCC 
occasionally issues security bulletins, while FRB issues Supervision 
and Regulation Letters (an example includes the April 4, 2011, release 
of SR11-7 entitled ``Guidance on Model Risk Management''). The FDIC 
also authored the Information Technology Officer's Questionnaire, 
whereby an officer of the financial institution must document, attest, 
and sign to 71 questions in five information security categories: risk 
assessment, operations security and risk management, audit/independent 
review program, disaster recovery and business continuity management, 
and vendor management and service provider oversight. This 
questionnaire is periodically updated and released as the security/
technology landscape changes.
            H. Third-Party Self Regulation
    Small- and medium-sized financial institutions depend heavily on 
hardware and software vendors for nearly all banking products. In 
addition, many of these vendors become service providers offering to 
host and manage their products for the SMFI. The service provider 
industry has experienced several significant data breaches affecting 
the financial services industry in the past several years, including 
ChoicePoint (163,000 data records), TJX (100 million data records), 
Heartland Payment Systems (130 million data records), etc. When 
companies choose to outsource data processing to a third party, they 
typically perform information security due diligence on the third party 
to understand how the data will be protected. A very common standard 
for third party assurance has been the SAS 70; however, the SSAE16 
standard is replacing the SAS70 and moving more to an attestation model 
(similar to independent financial audits). BITS, a nonprofit 
organization, has also attempted to standardize the assessment of 
third-party service providers by developing the ``BITS Framework for 
Managing Technology Risk for Service Provider Relationships'', which 
includes two tools to help service providers in control selection and 
implementation. The first tool is called Standardized Information 
Gathering Questionnaire (SIG), which is a template based on the ISO 
27002 standard, and specifies the expected information security 
controls that should be in place at the service provider organization. 
The second tool is the Agreed Upon Procedures (AUP), which serve as 
testing procedures meant to validate the effectiveness of the controls 
specified in the SIG.
    In summary, SMFIs operate in an increasingly complex regulatory 
environment, with community banks regulated aggressively and credit 
unions a little less. This regulation is necessary, but causes 
significant financial, resource, and other issues in SMFIs who must 
leverage technology to compete. Increasing regulation is likely as 
additional technologies are deployed and the cybersecurity stakes grow, 
but all increased regulation must be tempered with a SMFI's ability to 
stay in business and meet the needs of their customers. The majority of 
SMFIs are in rural locations and may be the only local funding source 
for a community.

SECTION II. Data Security and Privacy Issues in the Financial Sector
  <bullet>  Over 500 million data records have been breached since the 
        ChoicePoint breach of 2005: 534,232,379 RECORDS BREACHED from 
        2,539 DATA BREACHES made public since 2005 (Source: 
        PrivacyRights.Org).

  <bullet>  How many of these data records and breaches involved the 
        financial sector? 247,808,947 RECORDS BREACHED from 386 DATA 
        BREACHES made public since 2005 (Source: PrivacyRights.Org).

    U.S. SMFIs and SMEs are important as millions of consumers depend 
upon community banks, credit unions, accounting firms, tax-preparation 
firms, investment offices, insurance agencies, and the like. When 
issues in the financial system exist, confidence erodes and consumers 
are left paralyzed wondering what to do. Similarly, as Deborah Platt 
Majoras Chairman of the Federal Trade Commission stated at High-Tech 
World, 2005, ``when data breaches or an infrastructure attack occurs, 
customer confidence is eroded and spending is held close to the vest.'' 
The margin for error in SMEs is relatively small, and one such data 
breach can shut the doors on viable businesses.
    Further, if terrorists would target these vulnerable SMFIs or SMEs, 
they would find a soft underbelly of relatively under-protected 
targets. A plethora of nefarious activities are then possible, 
including stealing and selling customer data, extorting ransoms, 
``owning'' the computer, making these systems unavailable, etc. Stated 
directly, these activities could be enough to put a SME or SMFI out of 
business. The reality is that while it is nearly impossible to 
challenge the importance of SMEs and SMFIs in the U.S., it is equally 
difficult to convince security experts that either are prepared to 
protect their critical systems, important customer information and do 
their part to battle against the war on terror.
    The Federal Government identified banking and finance as a critical 
infrastructure that requires protection, yet most of the attention is 
paid to the large financial institutions. SMFIs and SMEs store and 
transmit much nonpublic data, with limited resources to fend off a 
well-equipped, well-funded enemy. A recent survey of bank executives 
called out this very fact. When asked what their top technology concern 
was over the next 2 years, risk management and compliance topped the 
list. A black market drives insiders and hackers to steal information 
because of its value. An article in Information Week highlighted the 
problem: ``More electronic records were exposed in 2009 than in the 
previous 4 years combined and most of those breaches--nine out of ten--
could be easily avoided with basic preventative controls consistently 
applied.'' SMFIs and SMEs have a wealth of nonpublic, sensitive data 
that cyber thieves are targeting with increasing regularity.
    Cybersecurity is a broad and pervasive issue leading to at least 
two national issues: critical information protection and identify 
theft. Critical information protection is guarding our electronic 
infrastructures as an issue of national security. Incidents are 
classified, but it is well established that China and others are 
interested in technology disruptions that affect the United States' 
ability to conduct commerce. President Obama is on record stating that 
the United States is not prepared for CIP and despite national budget 
pressures is creating a division within the national Government (Cyber 
Command) to begin focusing on this new national issue.
    Identity theft is the fastest growing crime in America and the 
risks of not protecting such information can be catastrophic to SMEs in 
communities. When identities of good U.S. citizens are stolen by cyber 
criminals, the good citizen can be humiliated, lack good credit, and 
spend significant time and money in an attempt to partially restore 
their good name. Information risk management is the first step in 
resolving the broad and pervasive issues of CIP and Identity Theft. 
Public Law 111-24 was signed by the President establishing a Small 
Business Information Security Task Force to look into the issue. The 
Ponemon Institute, an independent research firm which conducts research 
on privacy, data protection, and information security policy, 
calculates in 2010 businesses paid an average of $202 per compromised 
record (Ponemon Institute). This equates to $101,000 for a SME with 500 
customer records. SMEs who cannot securely manage customer data from 
identity theft face either closure or acquisition by larger 
metropolitan-based organizations that have in-house IT security.
    ``Cyber crime is having enormous real consequences, which holds the 
potential to cripple businesses and services,'' says Steven Chabinsky, 
deputy assistant director of the FBI's Cyber Division. He continues, 
``Cybersecurity is not a nice thing to have for American businesses, it 
is critical to their survival.'' Cyber criminals began by hacking phone 
systems and Government networks, and expanded their operations to 
penetrate large organizations over the past 10 years. Today, cyber 
criminals are expanding again, this time to target and thieve small- 
and medium-sized businesses. This issue is magnified in America where 
there is very limited information security expertise, offering 
unprotected businesses as easy targets for organized cyber criminals 
with financial motivation.

Electronic Crimes in Commercial Banking With Small- and Medium-Sized 
        Financial Institutions
    Organized cyber gangs are increasingly preying on small- and 
medium-sized companies in the U.S., setting off a multimillion-dollar 
online crime wave and grave concerns that critical infrastructure 
Government and business depends upon each day may become compromised. 
It appears there are three contributing reasons they are growing so 
fast: (1) Low threat of arrest in these ``safe havens'', (2) High 
payout for the crime, and (3) Victim sharing data on these attacks has 
been minimal. The attacks are amazingly simple and the amount of money 
taken, information stolen, or infrastructure compromised is concerning. 
SMEs do not know how to protect themselves. In some cases where credit 
card theft has occurred, they have had to shut down because they lost 
the ability to process credit cards. Small businesses are being 
affected greatly by poor security practices. It is not a risk issue, 
but rather an issue of survival.
    Cyber criminals view SMEs as easy targets without the resources or 
knowledge to fend them off or prosecute them if caught. Consequently, 
cyber criminals are turning their attention to perceived easy targets 
in America. Identity thieves can cost SMFIs and SMEs their basic 
ability to stay in business (i.e., financial losses, bad publicity of a 
data breach, significant costs of recovering from a data breach, 
inability to process credit cards, etc.). Even if there were no 
measurable damages to customers, the notification costs alone can put 
the SME out of business. One-third of companies said that a significant 
security breach could put their company out of business. Information 
Week reports data breaches cost an average of $202 per record breached, 
with $139 of this cost attributable to lost businesses as a result of 
the breach. Many SMEs are having a difficult time in this recession, 
and even the smallest of distractions can be devastating. SMFIs, too, 
are struggling with increased assessment fees, limited deposits, 
limited fee-based products, and overwhelming compliance expenses, which 
is spurring closures and consolidation in the industry.
    While SMFIs have struggled to keep pace with hackers, the SMEs have 
clearly fallen short. In a study I completed of SMEs, 7 out of 10 SMEs 
lack at least one basic security control, such as a firewall, antivirus 
software, strong passwords, or basic security awareness for staff. Many 
SMEs simply lack the basic security most of us expect on our home PCs. 
As evidence, I provide a statistic. I am founder of Secure Banking 
Solutions, LLC, a security/privacy firm focused on information security 
and compliance for SMFIs. As such, SBS is regularly hired to conduct 
penetration tests on SMFIs where SBS security personnel run (after 
authorization) hacking tools to see if they can break into the bank's 
network and systems. SBS is effective in 27 percent of SMFIs (meaning 
that SBS personnel were able to gain access to information and systems 
they were not authorized for). To contrast, SBS is effective in 98 
percent of SME penetration tests. The question is ``why?'' and the 
answer is simple: SMFIs are regulated to a certain level of security 
that is far superior to a SME. Most anyone can download hacking tools 
from the Internet, point them at a SME, and gain unauthorized access, 
zombie the machine, steal data, or disrupt the environment.
    Traditionally, most SMEs have viewed security as a problem faced 
solely by large organizations, Government agencies, or online intensive 
operations as large organizations possess large, prolific information 
targets and are generally more regulated than SMEs. However, cyber 
criminals are finding easy targets in SMEs that have limited security. 
The financial gain for cyber thieves targeting SMEs is obviously less 
than that of large organizations, but they can be hacked in 
significantly less time with little to no effort. Tools to conduct 
these attacks on SMEs are freely downloadable from the Internet.
    Howard Schmidt, the White House Cybersecurity Coordinator, recently 
stated: ``Around 85 percent of cyber attacks are now targeting small 
businesses.'' (Source: Howard Schmidt, White House.)
    SMEs are targeted as they are easy prey and do not have the 
expertise to ward off attacks. Generally, SMEs with less than $10 
million in revenue will be a big market over the last 18 months. Most 
small businesses (86 percent) do not have staff dedicated to IT 
security and only 28 percent have an Internet security policy, on which 
only 35 percent train employees.
    The FBI recently issued an alert to all SMFIs and SMEs of this 
issue. These attacks are working because of a lack of security controls 
at the SME whereby fraudulent transactions are directly taken out of 
commercial customer's bank accounts.

        The Ponemon Institute reported in 2010 that 58 percent of small 
        businesses had a security loss due to online banking fraud, and 
        nearly one third of these small businesses experienced a loss 
        of more than $5,000.

    At a basic level, the attacker compromises the SME network due to a 
lack of basic security controls, and proceeds to install malware to 
steal login credentials. After receiving the login credentials (User ID 
and password), the hacker simply logs onto the SMFI network, escalates 
privileges as necessary, and steals data or money. Figure 1 outlines a 
typical corporate account take-over attack.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    SMFIs today lack an ability to understand which businesses 
represent risk to these new-wave attacks. SMEs are the target of these 
attacks and must understand how to prevent them from occurring.
    The current generation of banking products work because of 
technology, including remote deposit capture, Internet banking, mobile 
banking, item imaging, and online account origination. However, USA 
Today quoted Amrit Williams, a chief technology officer, ``Any 
organization that cannot survive a sudden five- or six-figure loss 
should consider shunning Internet banking altogether.'' Banking 
security analyst at Gartner, Avivah Litan, tells acquaintances that run 
small businesses to switch from commercial online accounts to an 
individual consumer account to take advantage of consumer-protection 
laws under Regulation E, because 57 percent of the time SMEs are stuck 
paying some or 100 percent of the bill. Regulation E protection does 
not exist for corporate accounts; consequently, SMEs have no legal 
protection if commercial account fraud occurs. Unlike individual 
accounts that protect individual consumers to a maximum exposure of $50 
if fraud occurs, corporate accounts have no such protection. The SME 
can sue or go to the media, but these approaches likely do not get the 
money back and drains even more resources from SME which are typically 
resource challenged.
    New fees levied by financial institutions on paper-based banking 
products are likely to push more small businesses into banking online, 
whether or not they are aware of and prepared for the types of 
sophisticated cyber attacks that have cost organizations tens of 
millions of dollars in recent months. Gartner analysts say banks should 
not be pushing more businesses into online banking without adequately 
informing them of the risks. The reality is that the perfect small-
business storm is occurring: heaving attacks are already beginning and 
significantly more technology will be deployed by SMFIs over the next 5 
years, creating a fertile cyber ground for terrorists to create 
problems.
    The 2011 Business Banking Trust Study provides insights from the 
SME perspective on the pervasiveness of fraud, the state of security at 
banks and businesses, and the impact fraud has on businesses' 
relationships with their banks. The 2011 study found:

  1.  Fifty-six percent of businesses reported experiencing payments 
        fraud or attempted payments fraud in the last 12 months;

  2.  In 78 percent of fraud cases, banks failed to catch fraud 
        involving the illegal transfer of funds or other nefarious 
        practices such as information identity theft; and

  3.  Thirty-eight percent of respondents said they access their 
        company's banking accounts from mobile devices including smart 
        phones and tablet PCs like the iPad, compared to only 23 
        percent in 2010.

    The survey data reveals that despite a year of increased public 
attention to the impact that corporate account takeover has had on 
businesses and banks, the industry has barely moved the needle in 
addressing the problem.
    The National Cyber Security Alliance has conducted a new 2011 
National Small Business Security Study with Visa Inc. to analyze small 
business' cybersecurity practices and attitudes. Results include:

  <bullet>  Only 43 percent of small- and medium-sized businesses have 
        a plan in place to respond to the loss of customer data, such 
        as credit or debit card information or personal identifying 
        data.

  <bullet>  Forty-seven percent of employees at SMEs report receiving 
        no security training.

  <bullet>  Fifty-three percent of all small business owners believe 
        the high cost in time and money to fully secure their business 
        is not justified by the threat.

  <bullet>  Fifty-seven percent are NOT confident that their business 
        is protected against cyber thieves.

    In summary, there is little doubt that the financial services 
sector is under attack for identity theft and infrastructure corruption 
motives. There is also little double that the small- and medium-sized 
businesses and financial institutions are coming in the cross-hairs of 
cyber criminals. The number and significance of data breaches and 
attacks is significant, and only a comprehensive approach that looks at 
all infrastructure holistically (from Government, academia, and 
industry) can ward off these terrorists.

SECTION III. Analysis of Administration's Cybersecurity Bill on the 
        Financial Industry, With Particular Attention to Small- and 
        Medium-Sized Financial Institutions
    This section will summarize the state of cybersecurity protection 
and compliance in both SMFIs and SMEs and discuss the Administration's 
Cybersecurity Bill and its impact on SMFIs.

1. Technology, Cybersecurity, and Compliance Challenges Are Outpacing 
        the Capabilities of SMFIs and SMEs.
    Technology is advancing faster than SMFIs' ability to respond with 
appropriate mitigating security controls. For example, the use of cell 
phone cameras to take a picture of a check as the basis for making an 
electronic deposit into an account, or P2P, B2B, or B2P transactions by 
cell phone create security exposures for which there are inadequate 
controls to prevent fraud. Fortunately, most SMFIs are not first 
adopters of new technology, but rather prefer to wait until the systems 
become more seasoned before embracing newer technologies. Moreover, the 
timeline between introduction, implementation and adoption of new 
technology by consumers continues to shrink. Just 10 years ago, data 
processing was the buzz where computers were essentially back-off 
equipment designed to promote efficiency in the financial institution. 
Today, technology is front-line differentiators for banks, with 
customers demanding to use mobile technologies and social media to 
conduct banking commerce. The risk profile 10 years ago included 
someone breaking into the bank's computer to get customer records, 
while the risk profile today is someone breaking into cell phones, 
laptops, mobile devices, social media sites, merchants who deposit 
checks via imaging systems, service providers who host critical banking 
applications, Web sites which validate flood plains or credit bureau 
information, etc. This list goes on and on regarding the technologies 
typical in a SMFI. The next generation of technologies will 
exponentially increase the risk profile because information and 
infrastructure will be further distributed, and not partitioned off by 
the walls of the bank. With the increase in outsourcing and the 
mounting risks of offshoring, requiring data centers to be located in 
the U.S. seems consistent with the goal of increasing our cybersecurity 
posture. Banks leverage Brinks trucks to secure the delivery of cash to 
their bank. The financial industry needs to devise ``cyber Brinks 
trucks'' to perform the same role in cyberspace.
    The attack target at SMFIs is typically individual accounts and 
small- and medium-sized business accounts (i.e., corporate accounts). 
For the most part, cyber crooks have used malicious software to infect 
those computers because the controls at small- and medium-sized 
businesses (SMEs) are nonexistent or rudimentary at best--certainly not 
nearly as in-depth as even the smallest financial institutions. The PCI 
standards are clearly inadequate, and for the most part based on 
voluntary compliance and self-audit. Today, the best mitigation 
strategy seems to be to educate individuals and SMEs to the risks and 
controls that are essential to minimize the potential for major cyber 
loss or disruption. Moreover, we do not think it is appropriate or 
reasonable to shift the burden of loss from the person or organization 
that had inadequate controls in place to detect and deter cyber hacking 
attacks, to the financial institutions that process the withdrawals by 
the crooks, generally through ACH debits. The recent Experimental Metal 
Incorporated (EMI) vs. Comerica Bank decision is concerning to the 
small- and medium-sized financial sector as it appears to increase SMFI 
responsibilities to information risk management of corporate accounts 
(even if the security attack occurred at the SME). Automated systems 
are necessary that help individuals and SMEs identify risks, controls, 
and mitigation strategies. It would appear that SMFIs, which already 
conduct a bank IT risk assessment and a third party vendor assessment, 
will need to put in place a corporate account risk management program 
very shortly.
    The mounting compliance drivers are beginning to take their toll on 
SMFIs around the country.

        The compliance burden continues to rise. We cannot discount the 
        impact of using limited resources to combat cybersecurity risks 
        when so much time, energy, and money are being spent today on 
        operational compliance issues, training, and staff time. 
        (Source: Daryll Lund, President and CEO, Community Bankers of 
        Wisconsin.)

2. SMFIs and SMEs Lack Sufficient Cybersecurity Resources.
    As we have discussed, cyber crime is now big business. There is 
every reason to believe that cyber crooks will continue to find ways to 
defeat controls and attempt to hack small- and medium-sized businesses 
and high net worth individuals. To date, one of the most effective 
deterrents has been in educating customers, ``know your customer'' and 
placing per transaction and aggregate daily limits on ACH and wire 
transfers. Smaller financial institutions are generally in a better 
position than large institutions to know their customers, enforcing 
lower transaction and aggregate limits, and placing more restrictive 
controls involving ACH and wire transfer controls. However, smaller 
financial institutions cannot afford to put in place the highly 
sophisticated equipment that the large financial institutions use to 
monitor data/cybersecurity exposures. Smaller financial institutions 
generally do not have the resources to continually put in place the 
most advanced security controls. However, the solution for the smaller 
financial institutions is to form strategic partnerships with 
organizations that have expertise and infrastructure to combat the 
latest cyber threats. This of course requires a system for procedural 
controls and continuous monitoring of vendors, more effective risk 
management tools honed to the unique needs of small- and medium-sized 
financial institutions, and normative data to help decision makers 
understand trends, anomalies and the like to support cost-effective 
information security spending.
    In addition, SMFIs and SMEs typically lack information security 
staff. At a SMFI, a loan officer, head teller, VP of Operations, or IT 
staff are the usual candidates named Information Security Officer. We 
have yet to meet a SMFI Information Security Officer with a formal 
education in information protection. Bachelor, Masters, and Doctoral 
programs are available in Computer and Network Security, Information 
Security, Information Assurance, Homeland Security, and other 
derivatives of cybersecurity; yet, because demand simply outpaces 
supply, the SMFIs are left without qualified resources. Further, the 
Information Security Officer that is named typically wears four or five 
``hats'' at the SMFI. Understanding emerging security threats, threat 
actors, vulnerabilities, and the like takes time and expertise, and 
cannot simply be assigned likely to existing staff.
    Further, we applaud the President for inclusion of CNCI Initiative 
#8: Expand Cyber Education in his comprehensive strategy. While 
technology is vital to preventing, detecting, and responding to 
security attacks, equally important are the people who determine 
security strategy, devise and operationalize security programs, and 
skillfully deploy the technologies that wall-off our critical 
infrastructures and information. We commend the Federal Government for 
starting the NSA/DHS Center of Academic Excellence in Information 
Assurance Education and Research Programs. The NSA/DHS partnership was 
formed in 2004 in response to the President's National Strategy To 
Secure Cyberspace of 2003. The CAE-R program was added in 2007 to 
encourage universities and students to pursue research, development and 
innovation in Information Assurance (cybersecurity). The program 
originally created by this partnership has continued to grow and become 
even more relevant and critical to U.S. national security today. One-
hundred-and-six universities across the United States, located in 37 
States, the District of Columbia, and the Commonwealth of Puerto Rico, 
are now designated by NSA/DHS as National Centers of Academic 
Excellence in Information Education and/or Research. Qualified IA 
professionals from the National Security Agency, the Department of 
Homeland Security, and the Committee on National Security Systems 
review and assess applications. Universities designated as National 
Centers of Academic Excellence in Information Assurance are eligible to 
apply for scholarships and grants through both the Federal and 
Department of Defense Information Assurance Scholarship Programs. 
Graduates from Information Assurance programs at CAE institutions 
become the professional cybersecurity experts protecting national 
security information systems, commercial networks, and critical 
information infrastructure. These professionals are helping to meet the 
increasingly urgent needs of the U.S. Government, industry, academia, 
and research. Designation as a CAE/IAE or CAE-R is awarded for 5 
academic years, after which the college or university must successfully 
reapply in order to retain the designation.

  <bullet>  CAE2Y--National Centers of Academic Excellence in 
        Information Assurance 2-Year Education

  <bullet>  CAE/IAE--National Centers of Academic Excellence in 
        Information Assurance Education

  <bullet>  CAE-R--National Centers of Academic Excellence in 
        Information Assurance Research

    The CAE program is a huge success and the credit goes to the 
thought leaders in the Federal Government that anticipated the 
cybersecurity issue and the resource shortage it would create. We 
advise the President to consider expanding this program with funding so 
that more educational, research, and outreach capacity is created to 
serve the needs of Government and industry (companies small and large). 
We advise the expansion of the scholarship for service program (SFS) at 
NSA, DoD, and NSF, including expanding the number of scholarships and 
the places scholarship students can pay back their scholarship. For 
example, can we make it possible for a SFS student to complete his/her 
service at a critical infrastructure owned and operated by the private 
sector? NSA and DHS alike deserve a lot of credit for operationalizing 
this successful program, and we suggest Administration considers 
leveraging this investment as a starting point for CNCI Initiative #8: 
Expand Cyber Education, rather than creating a new mousetrap and 
starting over.
    More effective training and educational programs must be made 
available to SMFI and SME industry personnel. One such example is the 
program in Bank Technology Management that Kirby Davidson at the 
Graduate School of Banking at the University of Wisconsin has 
developed. This program launched in April 2011, and was capped at 50 
students (which filled in 2 weeks). The program is a blend of 
technology and security honed specifically to the community banking 
audience. The program includes 12 hours of ``ethical hacking,'' where 
students download and execute common hacking tools so they understand 
what tools the adversary has in the arsenal.

        As the technologies used to support banking become more 
        important, and as banking products demand more sophisticated 
        technology solutions, it's vital that IT professionals and 
        information security officers understand how to effectively 
        choose, deploy and lead the use of current and emerging 
        technologies to meet business goals and regulatory 
        requirements. It's also critical that IT professionals 
        understand key steps that they can initiate at their bank to 
        proactively protect vital customer information from cyber and 
        network attacks. All of this, and more, is included in the new 
        Bank Technology Management School offered through the Graduate 
        School of Banking at the University of Wisconsin-Madison. The 
        school uses a mix of lectures, small group discussions and 
        interactive computer simulation labs that allow students to 
        work with learned concepts in real-world situations. (Kirby 
        Davidson, President and CEO, Graduate School of Banking, 
        Madison, WI.)

    Small- and medium-sized financial institutions lack qualified 
security experts to protect their interests. SMFIs simply cannot afford 
or do not have access to security specialists. Many certified and 
qualified security officers command six-figure salaries, inconsistent 
with the resources available at SMFIs. Most of these certified, 
qualified individuals live in urban areas, again inconsistent with the 
demands of SMFIs. Universities, community colleges and trade schools 
can do even more to create programs that produce security experts who 
can work into the SMFI environment. As the Federal Government continues 
hiring of cyber experts, this will likely put even more pressure on the 
supply of such experts needed in SMFIs.

3. Digital Infrastructure Is Infrastructure.
    When an ice storm occurs in North Dakota, icing up power lines and 
taking out power, the region is paralyzed until power is restored. It 
can sometimes take weeks and months to complete this task, depending 
upon the tenacity of Mother Nature. What would happen to these 
financial institutions, our economy, and our consumer confidence level 
if malicious nation-states disrupted our power instead of an ice storm? 
How long would it take for power to be restored on infrastructure 
dating back centuries?
    Power, water, transportation, and the Internet (just to name a few) 
are all required to conduct banking commerce. While SMFIs are required 
to devise business continuity, incident response, and pandemic 
preparedness plans, no SMFI could operate if essential infrastructure 
we all depend up (such as the power grid) was compromised. The job is 
much larger than any one SMFI. The CNCI's major goals to establish a 
front line of defense against today's immediate threats and to defend 
again a full spectrum of (future) threats is so massive that only the 
Federal Government could take this on. However, to the degree major and 
minor changes are needed at SMFIs or SMEs, we urge the Administration 
to consider this infrastructure and fund it. There needs to be a mind-
set shift away from industry paying for everything in this 
infrastructure (because they created it and are the users of it) to 
some shared cost model. If this infrastructure is truly a matter of 
national security then the Federal Government has a funding 
responsibility. Just as tanks, planes, and weapons are funded to 
protect our interests, we urge the Administration to consider their 
financial responsibilities as it relates to this vital electronic 
infrastructure. President Obama said it best:

        We count on computer networks to deliver our oil and gas, our 
        power and our water. We rely on them for public transportation 
        and air traffic control . . . But just as we failed in the past 
        to invest in our physical infrastructure--our roads, our 
        bridges and rails--we've failed to invest in the security of 
        our digital infrastructure . . . This status quo is no longer 
        acceptable--not when there's so much at stake. We can and we 
        must do better. (Source: President Obama, May 29, 2009.)

Conclusion
    Electronic banking is the future, and if SMFIs cannot understand 
and resource their technology and security requirements then they will 
likely be left behind. We agree with the White House's conclusion in 
their recent cybersecurity legislative proposal that, at least with 
respect to cyber terrorists, the vulnerability of the electricity grid 
poses one of the most severe exposures to our country's critical 
infrastructure. The fact that a computer programmer in another country 
could cause the partial or complete disruption of this Nation's grid 
is, to say the least, extremely disturbing, but is beyond the scope and 
expertise of SMFIs to respond. However, small- and medium-sized 
financial institutions need representation at the table, and we 
encourage the President to consider including this voice as small- and 
medium-sized financial institutions and businesses are the majority, 
not the minority, of American businesses.
    Thank you for the opportunity to participate in this important and 
timely hearing. The National Center for the Protection of the Financial 
Infrastructure and Dakota State University look forward to working with 
all stakeholders to operationalize the President's vision of a safe 
electronic infrastructure for all businesses to use. We applaud the 
President in making cybersecurity an Administration priority, and 
concur with the President's comments that the ``cyber threat is one of 
the most serious economic and national security challenges we face as a 
Nation.'' To make an impact, policy must change, resource allocation 
must change, and a more comprehensive approach must be deployed.
    We want to thank you again for this opportunity to appear before 
you.
                                 ______
                                 
                 PREPARED STATEMENT OF STUART K. PRATT

     President and Chief Executive Officer, Consumer Data Industry 
                              Association
                             June 21, 2011

    Chairman Johnson, Ranking Member Shelby, and Members of the 
Committee, my name is Stuart Pratt, and I am president and CEO of the 
Consumer Data Industry Association (CDIA). Thank you for this 
opportunity to testify on cybersecurity and data protection in the 
financial sector.
    CDIA is an international trade association with more than 190 
member companies, providing our Nation's businesses with the data tools 
necessary to manage risk in a wide range of consumer transactions. 
These products include credit and mortgage reports, identity 
verification tools, law enforcement investigative products, fraudulent 
check transaction identification systems, employment screening, tenant 
screening, depository account opening tools, decision sciences 
technologies, locator services, and collections. Our members' data and 
the products and services based on it ensure that consumers benefit 
from fair and safe transactions, broader competition and access to a 
market which is innovative and focused on their needs. We estimate that 
the industry's products are used in more than nine billion transactions 
per year.
    You have asked us to address a number of topics in our testimony. 
Let me start with an overview of some of the most relevant laws and 
regulations which apply to our members' products and services.
Data Security
    The Senate Banking Committee has a clear record across many 
Congresses of oversight of the financial services sector's efforts to 
secure sensitive personal information. Let me describe just a few of 
these efforts.
    One of the most notable and prescient actions of the Committee was 
the 1999 passage of Title V of the Gramm-Leach-Bliley Act, signed into 
law by President Clinton. While Title V established a number of new 
duties relative to how data transfers occur in the financial services 
sector, most notable for today's hearing was the direction given to 
bank regulatory agencies and the Federal Trade Commission in section 
501 to develop regulations regarding the security of nonpublic personal 
information.
    The FTC's explanation of the Safeguards Rule, which implements the 
security requirements of the GLB Act, speaks to the breadth of the 
rule's application and what is required of any person who must comply:

        [It] requires financial institutions to have reasonable 
        policies and procedures to ensure the security and 
        confidentiality of customer information. The ``financial 
        institutions'' covered by the Rule include not only lenders and 
        other traditional financial institutions, but also companies 
        providing many other types of financial products and services 
        to consumers. These institutions include, for example, payday 
        lenders, check-cashing businesses, professional tax preparers, 
        auto dealers engaged in financing or leasing, electronic funds 
        transfer networks, mortgage brokers, credit counselors, real 
        estate settlement companies, and retailers that issue credit 
        cards to consumers.

        The Rule is intended to be flexible to accommodate the wide 
        range of entities covered by GLB, as well as the wide range of 
        circumstances companies face in securing customer information. 
        Accordingly, the Rule requires financial institutions to 
        implement a written information security program that is 
        appropriate to the company's size and complexity, the nature 
        and scope of its activities, and the sensitivity of the 
        customer information it handles. As part of its program, each 
        financial institution must also: (1) assign one or more 
        employees to oversee the program; (2) conduct a risk 
        assessment; (3) put safeguards in place to control the risks 
        identified in the assessment and regularly test and monitor 
        them; (4) require service providers, by written contract, to 
        protect customers' personal information; and (5) periodically 
        update its security program.

    It is hard to overstate the effects that this action has had on the 
security of the flows of sensitive personal information in the United 
States. CDIA's members operate as financial institutions under GLB and 
thus comply with the Safeguards Rule. The model that this Committee 
established more than a decade ago has withstood the test of time. It 
should operate as a framework for other committees as they consider 
establishing a similar data security duty.
    Of particular importance to the CDIA is that the Senate Banking 
Committee had the foresight to ensure that data security was not a 
hard-coded statutory prescription. Risks change over time and so too 
must the strategies used to mitigate these risks. The Committee also 
recognized that those who have a duty to comply will vary in terms of 
size, complexity, and even the types of data retained. Because of this, 
the Committee built into the statute direction for regulators to take 
into consideration these factors when designing the rule and measuring 
how each person implements its requirements. This ``regulatory 
flexibility act like'' approach has been critical to ensuring strong 
security, by not dictating a single solution or approach to security 
threats, thus leaving our members' security experts the creative room 
to secure data assets against threats. At the same time, its 
flexibility is not a statutory and regulatory regime which drives 
small- and medium-sized businesses out of the marketplace.
    The GLB Safeguards Rules are also designed to be administratively 
enforced, which we believe has ensured that national uniformity has not 
been impaired by private actions that could create a circuit-by-circuit 
compliance nightmare for U.S. businesses operating on a super-regional 
or nationwide basis. This is not to say, however, that such laws are 
not enforceable. For financial institutions subject to regulatory 
examination by bank agencies, compliance with the GLB Safeguards Rule 
is an annual event measured with prudence and care. For persons not 
subject to bank agency examinations, the Federal Trade Commission has 
proven itself to be an able agency in many ways. First, it has sought 
to encourage successful compliance through education. CDIA applauds 
this education-first approach which compliments the Association's own 
training programs on this subject. FTC enforcement actions have focused 
on both smaller and larger institutions, and consent orders have 
informed the broader community regarding approaches to compliance and 
FTC expectations. Overall, the GLB Safeguards Rules have operated just 
as expected, and have ensured that literally trillions of data 
transmissions and transactions are secure in the context of a healthy 
and competitive private-sector marketplace.

Disposal of Records
    The Senate Banking Committee's accomplishments are not limited to 
the enactment of Title V of GLB. In 2003, as part of its extensive 
oversight of the Fair Credit Reporting Act, the Committee recognized 
that disposing of sensitive data, whether stored electronically or 
otherwise, should be addressed. As part of the Fair and Accurate Credit 
Transactions Act of 2003, Congress amended the Fair Credit Reporting 
Act by adding Section 628 [15 USC 1681w] entitled ``Disposal of 
Records.'' This enactment required the Federal Trade Commission (as 
well as the Federal banking agencies, NCUA and SEC) to promulgate rules 
regarding the proper disposal of ``consumer information, or any 
compilation of consumer information, derived from consumer reports.'' 
This duty expanded the concept of proper disposal of records beyond the 
borders of users of consumer reports who were already subject to duties 
under the GLB Safeguards rule. This simple, straight-forward duty, it 
brought tens of thousands of users of data under the new law and 
specific rules. In doing so, the Committee ensured that sensitive 
personal data about consumers wasn't simply left in a dumpster, or on 
the hard drive of a laptop or a hand-held device which was sold without 
concern for its contents.

Credentialing Customers
    As a result of this Committee's actions to enact the FCRA (1970) 
and Title V of GLB (1999), our members have a number of duties to 
ensure that they know their customers, which is yet another important 
part of ensuring that a full and complete data security program is in 
place. Section 607(a) of the FCRA requires our members when operating 
as consumer reporting agencies to have each customer certify the uses 
for which they will order consumer reports. Today, this certification 
process often involves on-site inspections of the customer's offices, 
reviewing and confirming other credentials such as business licenses, 
and cross-referencing a prospective customer with the SDN list and 
other lists administered by the U.S. Treasury's Office of Foreign 
Assets Control. Further, the GLB Safe Guards Rules issued by bank 
agencies and the FTC require that proper access controls be in place to 
protect against unlawful access to nonpublic personal information. 
Access control strategies may include details of how passwords are 
administered, the frequency with which they are changed, how many 
factors are used to authenticate a legitimate user or the use of 
technologies to detect possible fraudulent access.

Aligning Current Law With Cybersecurity Proposals
    You have asked us to comment on how proposals, such as the 
Administration's cybersecurity bill, would affect financial 
institutions that come under the Committee's jurisdiction.
    Clearly because of the leadership of the Senate Banking Committee 
in establishing data security requirements found in laws such as the 
FCRA and Title V of GLB, as well as extensive regulations and guidance 
issued by bank agencies which resulted from these enactments, 
cybersecurity risks for financial institutions and their customers are 
far less than would otherwise be the case. Our members already invest 
heavily in defending against attacks by deploying external resources, 
leading-edge technologies and internal data security teams with unique 
core competencies. Some of our largest members also participate in 
existing information sharing systems such as the Financial Services 
Information Sharing and Analysis Center. \1\
---------------------------------------------------------------------------
     \1\ ISACs were created as a result of Presidential Decision 
Directive 63 (PDD-63) in 1998. The directive created a public/private-
sector partnership to share information about physical and cyber 
threats.
---------------------------------------------------------------------------
    With the existing legal and regulatory framework in mind, CDIA's 
members recognize that risks remain, and we do believe it is 
appropriate for the Administration and the Congress to focus on the 
ever-changing mix of risks posed by cybersecurity threats. We believe, 
however, that it is important for new laws not to impinge on frameworks 
of law which already establish the necessary focus on data security. 
Such conflicts are not inevitable and do not have to impede the passage 
of new national cybersecurity protections.
    As an example of how conflicts can be avoided, in place of 47 
existing State laws the Administration's bill proposes to protect the 
American people by creating a single, national standard for how and 
when a notification should be sent to a consumer if there has been a 
breach of sensitive personal information that could pose a risk. CDIA 
is on record testifying as recently as this past week in support of 
establishing an appropriate national standard for breach notification. 
We look forward to contributing our experience and expertise to any 
effort to structure a standard that is uniform and effective for 
consumers. Part of ensuring that such a standard is effective is to 
avoid arbitrarily overwriting existing national standards that are 
effective today--such as data breach guidance already issued by bank 
agencies.
    The ``financial sector'' is considered part of the ``Nation's 
critical infrastructure'' according to the Administration's May 12, 
2011, release. As described above, the financial services industry 
(including CDIA's members) is heavily regulated in general and 
specifically with regard to securing sensitive personal information. It 
is not clear, however, how a ``critical infrastructure'' designation as 
determined by the Department of Homeland Security would operate in the 
context of new agencies such as the Consumer Financial Protection 
Bureau created by the Dodd Frank Act, and the existing bank agencies 
that have a leading mission when it comes to data security or even the 
Federal Trade Commission. Avoiding conflicts is necessary and will 
require the Senate Banking Committee to proactively engage on the broad 
topic of cybersecurity to ensure that current, effective laws, 
regulations, and guidelines for the financial services industry 
continue to operate coterminous with new data security or data breach 
notification duties that may be established for other critical 
infrastructure identified by DHS.

Data Security and Privacy Are not the Same Issue
    The Senate Banking Committee can also play a vital role in ensuring 
that the important work of reducing the risks of cybersecurity attacks 
are not distracted by privacy issues, such as data collection and use 
practices. Several Congressional committees have delved into this 
privacy arena in an effort to address the data collection and use 
practices of so-called ``information brokers.'' It is important to 
understand that information brokers provide the data services and 
products necessary for commercial entities.
    Our members' products and services are particularly essential to 
the financial services sector. Financial institutions offering credit 
need to detect and prevent fraud, including identity theft, and to 
verify the identities of individuals seeking products and services 
through increasingly common remote transactions such as through the 
Internet, over mobile services, through the telephone and even by 
direct mail. CDIA members also help financial institutions enforce 
contracts with customers who have the ability to pay, but don't choose 
to do so. Lenders who must comply with bankruptcy code requirements to 
cease dunning a consumer who has filed for protection use our members' 
data tools to comply. USA Patriot Act Section 326 duties demand that 
financial institutions properly identify their customers and again it 
is our members' products and services which help them accomplish this 
goal and reduce the downstream effects of stolen data and other 
criminal efforts.

Conclusion
    Let me conclude with just a few summative points:

  1.  As stated above, CDIA has been on record for more than a decade 
        in support of establishing uniform, national standards for data 
        security and data breach notification. Action on cybersecurity 
        law could advance this cause.

  2.  Eliminating possible conflicts between the laudable and important 
        goal of ensuring that the Nation is secure from cybersecurity 
        risks and the operation of effective current data security and 
        breach notification laws/regulations/guidance which govern the 
        financial services sector can be accomplished with the 
        involvement of this Committee.

  3.  Keeping the privacy and data security debates separate is vital 
        to ensuring the continuance of data products and services which 
        contribute to preventing the crimes which arise from data/
        cybersecurity risks and ensuring that the important work of 
        mitigating cybersecurity risks is not encumbered by policy 
        issues that are not relevant.

    Our members again thank you for the opportunity to testify. I am 
happy to answer any questions.
                                 ______
                                 
                  PREPARED STATEMENT OF LEIGH WILLIAMS

     BITS President, on behalf of the Financial Services Roundtable
                             June 21, 2011

    Thank you Chairman Johnson, Ranking Member Shelby, and Members of 
the Committee for the opportunity to testify before you today.
    My name is Leigh Williams and I am president of BITS, the 
technology policy division of The Financial Services Roundtable. BITS 
addresses issues at the intersection of financial services, technology 
and public policy, on behalf of its 100 member institutions, their 
millions of customers, and all of the stakeholders in the U.S. 
financial system.
    From this perspective, I will briefly describe cybersecurity and 
data protection in financial services, including private sector 
efforts, sector-specific oversight and inter-sector interdependencies. 
I understand that the Committee is considering the cybersecurity 
legislative proposal delivered by the Obama administration to the 
President of the Senate on May 12. I will explain why The Financial 
Services Roundtable supports that proposal, and I will comment on how 
the proposal can best leverage our current protections.

Financial Institutions' Voluntary Cybersecurity Efforts
    In my view, within the financial services sector, the greatest 
amount of cybersecurity protection arises from voluntary measures taken 
by individual institutions for business reasons. To protect their 
retail customers, commercial clients, and their own franchises, 
industry professionals--from Chief Information Security Officers to 
CIOs to CEOs--are increasingly focused on safeguards, investing tens of 
billions of dollars in data protection. They recognize the criticality 
of confidentiality, reliability, and confidence to their success in the 
marketplace. This market-based discipline is enforced through an 
increasingly informed consumer base, and by a very active commercial 
clientele that often specifies security standards and negotiates for 
audit and notification rights.
    At the industry level, BITS and several other coalitions facilitate 
a continuous process of sharing expertise, identifying and promoting 
best practices, and making these best practices better, to keep pace in 
a dynamic environment. For example, as BITS and our members implement 
our 2011 business plan, we are addressing the following items 
associated with protecting customer data:

  <bullet>  Security standards in mobile financial services.

  <bullet>  Protection from malicious or vulnerable software.

  <bullet>  Security in social media.

  <bullet>  Cloud computing risks and controls.

  <bullet>  Email security and authentication.

  <bullet>  Prevention of retail and commercial account takeovers.

  <bullet>  Security training and awareness.

    While all of this institution-level and industry-level effort is 
voluntary--not driven primarily by regulation--it is not seen by 
industry executives as discretionary or optional. The market, good 
business practices and prudence all require it.

Oversight
    To strengthen public confidence and to ensure consistency across a 
wide variety of institutions, self-regulatory organizations and 
Government agencies codify and enforce a comprehensive system of 
requirements. Many of these represent the distillation of previously 
voluntary best practices into legislation introduced in this Committee, 
enacted into law, detailed in regulation, enforced in the field, with 
feedback to the Committee.
    For example, Members of this Committee are very familiar with the 
provisions of Gramm-Leach-Bliley, the Financial Services Modernization 
Act of 1999 (GLB). GLB fostered the promulgation of Regulation P by the 
Federal Financial Institutions Examinations Council (FFIEC) and 
Regulation S-P by the Securities and Exchange Commission (SEC). These 
regulations were translated into examination guidance. That guidance is 
consulted by institutions as they manage security and privacy programs, 
comprised of risk assessments, strategic plans, control teams, 
authentication technologies, customer notices, and many other elements. 
These elements are then audited by on-site examiners, who enforce the 
underlying requirements and promote safety and soundness in the 
institutions and across the industry. The sector-wide impact is 
assessed by our sector-specific agency, the U.S. Department of the 
Treasury. Finally, bringing the process full circle, this Committee 
oversees the agencies.
    In addition to these Federal authorities, institutions are subject 
to self-regulatory organizations like the Financial Industry Regulatory 
Authority (FINRA), State regulators like the banking and insurance 
commissioners, independent auditors, outside Directors, and others.
    These various oversight bodies, in addition to applying GLB, also 
apply the Fair and Accurate Credit Transactions Act (FACTA), Electronic 
Funds Transfers (Regulation E), Suspicious Activity Reporting (SARs), 
the International Organization for Standardization criteria (ISO), the 
Payment Card Industry Data Security Standard (PCI), BITS' own Shared 
Assessments and many, many more regulations, rules, guidelines, and 
standards.

Inter-Sector Collaboration
    Commensurate with the escalating cybersecurity challenges and 
increasing interconnectedness among sectors, more and more of our work 
entails public/private and financial/nonfinancial partnerships. Our 
Financial Services Sector Coordinating Council (FSSCC) of 52 
institutions, utilities and associations actively partners with the 
seventeen agencies of the Finance and Banking Information 
Infrastructure Committee (FBIIC). (For additional detail on the FSSCC's 
perspective on cybersecurity, research and development, and 
international issues, I refer the Committee to the April 15, 2011, 
testimony of FSSCC Chair Jane Carlin before the Subcommittee on 
Cybersecurity, Infrastructure Protection and Security Technologies of 
the House Homeland Security Committee.) Our Financial Services 
Information Sharing and Analysis Center (FS-ISAC) is in constant 
communication with the Department of Homeland Security (DHS), law 
enforcement, the intelligence community, and ISACs from the other 
critical infrastructure sectors, to address individual incidents and to 
coordinate broader efforts.
    Other examples of collaboration with nonfinancial partners, drawn 
just from BITS' 2011 agenda, include:

  <bullet>  The Cyber Operational Resiliency Review (CORR) pilot, in 
        which institutions may voluntarily request Federal reviews of 
        their systems, in advance of any known compromise--with DHS and 
        the Treasury.

  <bullet>  Multiple strategies for enhancing the security of financial 
        Internet domains--with the Internet Corporation for Assigned 
        Names and Numbers (ICANN) and Verisign, in partnership with the 
        American Bankers Association (ABA) and in consultation with 
        members of the FFIEC.

  <bullet>  A credential verification pilot--with DHS and the 
        Department of Commerce--building on private sector work that 
        began in 2009, was formalized in a FSSCC memorandum of 
        understanding in 2010, and was featured in the April 15, 2011, 
        announcement of the National Strategy for Trusted Identities in 
        Cyberspace (NSTIC).

    Through the processes and initiatives above and in many other 
efforts, financial institutions, utilities, associations, service 
providers, and regulators continue to demonstrate a serious, collective 
commitment to strengthening the security and resiliency of the overall 
financial infrastructure. As the Committee considers action on 
cybersecurity, I urge Members to be conscious of the protections and 
supervisory structures already in place and the collaborations 
currently underway, and to leverage them for maximum benefit.

Need for Legislation
    Even given this headstart and substantial momentum, we believe that 
cybersecurity legislation is warranted. Strong legislation can catalyze 
systemic progress in ways that are well beyond the capacity of 
individual companies, coalitions or even entire industries. For 
example, comprehensive legislation can:

  <bullet>  Raise the quality and consistency of security throughout 
        the full cyber ecosystem, including the telecommunications 
        networks on which financial institutions depend.

  <bullet>  Enhance confidence among U.S. citizens and throughout the 
        global community.

  <bullet>  Strengthen the security of Federal systems.

  <bullet>  Mobilize law enforcement and other Federal resources.

  <bullet>  Enable and incent voluntary action through safe harbors and 
        outcome-based metrics, rather than relying primarily on static 
        prescriptions.

    Attached to my testimony is a list of 13 policy approaches that the 
FSSCC recently endorsed, along with three that it deemed problematic. I 
urge the Committee to consider the FSSCC's input, particularly in light 
of the FSSCC's leadership of the financial services industry on this 
issue.

Obama Administration Proposal
    On May 12, 2011, on behalf of the Administration, the Office of 
Management and Budget transmitted to Congress a comprehensive 
legislative proposal to improve cybersecurity. The Financial Services 
Roundtable supports this legislation and looks forward to working for 
its passage. We support many of the provisions of this proposal on 
their individual merits, and we see the overall proposal as an 
important step toward building a more integrated approach to 
cybersecurity. Given that our member institutions operate nationally, 
are highly interdependent with other industries, and are already 
closely supervised by multiple regulators, we appreciate that this 
proposal promotes uniform national standards, throughout the cyber 
ecosystem, with the active engagement of sector-specific agencies and 
sector regulators.
    Consistent with its comprehensive approach, the proposal strives to 
address cybersecurity both at the level of the entire ecosystem and 
also within specific sectors. For example:

  <bullet>  The Law Enforcement title refers to damage to critical 
        infrastructure computers, but also to mail fraud and wire 
        fraud.

  <bullet>  The Data Breach Notification title refers to sensitive 
        personally identifiable information and Federal Trade 
        Commission (FTC) enforcement, but also more specifically to 
        financial account numbers, credit card security codes, the Fair 
        Credit Reporting Act (FCRA), and an exclusion for entities 
        covered under the Health Information Technology for Economic 
        and Clinical Health Act (HITECH).

  <bullet>  The DHS Cybersecurity Authority title naturally stresses 
        DHS' role, but it also mentions ``other relevant agencies'' and 
        sector coordinating councils.

  <bullet>  Finally, the Regulatory Framework title focuses largely on 
        DHS leadership and standardized evaluations, but it also 
        mentions ISACs and sector-specific regulatory agencies, and 
        provides for sector-level exemptions.

    We believe that harmonizing the comprehensive approach with the 
need to incorporate sector-specific mechanisms will be one of the most 
important challenges as the Congress considers this proposal. We urge 
the Committee and the full Congress to leverage existing financial 
services protections and circumstances, and their analogs in other 
sectors, while preserving the comprehensive quality of the proposal. We 
offer the following two approaches as illustrations:

  <bullet>  Establish a uniform standard with specified exceptions: In 
        the Data Breach Notification title, the FTC could enforce the 
        requirements enacted under this bill, but defer to sector-
        specific regulators where substantially similar sector-specific 
        rules and guidelines already are in place (e.g., the FFIEC 
        could continue to enforce its 2005 interagency guidance, and 
        the Department of Health and Human Services could continue to 
        enforce HITECH).

  <bullet>  Preserve sector autonomy with centralized information 
        aggregation and coordination: In the Regulatory Framework 
        title, rather than requiring DHS to list critical 
        infrastructure entities for every sector, the sector-specific 
        agencies could make that determination, just as the Financial 
        Stability Oversight Council is responsible for designating 
        Systemically Important Financial Institutions.

    Given the likely fluidity of the overall solution, we cannot yet 
make a definitive recommendation for either approach. We do believe 
that this question of sector/ecosystem balance warrants careful 
deliberation.
    I will structure the remainder of my testimony as a brief 
commentary on a few key provisions of the proposal.

Law Enforcement
    We support the proposal's clarification and strengthening of 
criminal penalties for damage to critical infrastructure computers, for 
committing computer fraud, and for the unauthorized trafficking in 
passwords and other means of access. We also urge similar treatment for 
any theft of proprietary business information. With this extension, the 
law enforcement provisions will improve protections for both consumers 
and institutions, particularly when paired with expanded law 
enforcement budgets and the recruitment of personnel authorized in 
later titles.

Data Breach Notification
    We support the migration to a uniform national standard for breach 
notification. Given existing State and financial services breach 
notification requirements, this migration will require both strong 
preemption and reconciliation to existing regulations and definitions 
of covered data. We support the exemptions for data rendered 
unreadable, in breaches in which there is no reasonable risk of harm, 
and in situations in which financial fraud preventions are in place.

DHS Authority
    We believe that two areas mentioned in this section--fostering the 
development of essential technologies, and cooperation with 
international partners--merit considerable investment. As DHS and the 
National Institute of Standards and Technology (NIST), pursue their 
research and development agendas, and as the Administration pursues its 
recently announced International Strategy for Cyberspace, we hope to 
see substantial resource commitments and advances in these areas.

Federal Information Security Policies
    We are encouraged by the proposal of a comprehensive framework for 
security within Federal systems. As institutions report more and more 
sensitive personal and financial data to regulators (and directly and 
indirectly to DHS), it is critically important that this data be 
appropriately safeguarded. Protecting this data, modeling best 
practices, and using Federal procurement policies to expand the market 
for secure products, are all good motivations for adopting these 
proposed mandates.

Personnel Authorities
    Because we recognize how difficult it is to recruit the most 
talented cybersecurity professionals, we support the expanded 
authorities articulated in this section. We particularly support 
reactivating and streamlining the program for exchanging public sector 
and private sector experts.

Data Center Locations
    Consistent with our view of financial services as a national 
market, we support the presumption that data centers should be allowed 
to serve multiple geographies. We encourage Congress to consider 
extending this logic for interstate data centers to the international 
level, while recognizing that the owners, operators, and clients of 
specific facilities and cloud networks must continue to be held 
accountable for their security, resiliency, and recoverability of 
customer data, regardless of the servers' geographic location or 
dispersion.

Conclusion
    The Financial Services Roundtable and its members are fully 
committed to advancing cybersecurity and resiliency, and we very much 
appreciate the Senate Banking Committee's attention to this issue. For 
our part:

  <bullet>  We will continue to strengthen security with our members 
        and partners,

  <bullet>  We will help answer this question of ecosystem/sector 
        balance,

  <bullet>  And we will work to pass and implement the Administration's 
        cybersecurity proposal.

    Thank you for your time. I would be pleased to answer any questions 
you may have.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                  PREPARED STATEMENT OF MARC ROTENBERG
       Executive Director, Electronic Privacy Information Center
                             June 21, 2011

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                  PREPARED STATEMENT OF PABLO MARTINEZ

Deputy Special Agent in Charge, Criminal Investigative Division, Secret 
                                Service
                             June 21, 2011

    Good morning Chairman Johnson, Ranking Member Shelby, and 
distinguished Members of the Committee. Thank you for the opportunity 
to testify on the role of the U.S. Secret Service (Secret Service) in 
investigating and dismantling criminal organizations involved in cyber 
crime.
    On February 1, 2010, the Department of Homeland Security (DHS) 
delivered the Quadrennial Homeland Security Review (QHSR), which 
established a unified, strategic framework for homeland security 
missions and goals. The QHSR underscores the need for a safe and secure 
cyberspace:

        Our economic vitality and national security depend today on a 
        vast array of interdependent and critical networks, systems, 
        services and resources. We know this interconnected world as 
        cyberspace, and without it, we cannot communicate, travel, 
        power our homes, run the economy, or obtain Government 
        services.

        Yet as we migrate more of our economic and societal 
        transactions to cyberspace, these benefits come with increasing 
        risk. We face a variety of adversaries who are working day and 
        night to use our dependence on cyberspace against us. 
        Sophisticated cyber criminals pose great cost and risk both to 
        our economy and national security. They exploit vulnerabilities 
        in cyberspace to steal money and information, and to destroy, 
        disrupt, or threaten the delivery of critical services. For 
        this reason, safeguarding and securing cyberspace has become 
        one of the Department of Homeland Security's most important 
        missions. (p. 29) \1\
---------------------------------------------------------------------------
     \1\ Department of Homeland Security. (2010). Quadrennial Homeland 
Security Review Report: A Strategic Framework for a Secure Homeland.

    In order to maintain a safe and secure cyberspace, we have to 
disrupt the criminal organizations and other malicious actors engaged 
in high consequence or wide-scale cyber crime.
    As the original guardian of the Nation's financial payment systems, 
the Secret Service has a long history of protecting American consumers, 
industries and financial institutions. Over the last two decades, the 
Secret Service's statutory authorities have been reinforced to include 
access device fraud (18 USC 1029), which includes credit and debit 
card fraud. The Secret Service also has concurrent jurisdiction with 
other law enforcement agencies for identity theft (18 USC 1028), 
computer fraud (18 USC 1030), and bank fraud (18 USC 1344).
    Due to our extensive experience investigating financial crimes, the 
Secret Service participated in the President's Comprehensive National 
Cyber Security Initiative to raise our overall capabilities in 
combating cyber crime and all forms of illegal computer activity. The 
Secret Service developed a multifaceted approach to combating cyber 
crime by: expanding our Electronic Crimes Special Agent Program; 
expanding our network of Electronic Crimes Task Forces; creating a 
Cyber Intelligence Section; expanding our presence overseas; forming 
partnerships with academic institutions focusing on cybersecurity; and 
working with DHS to establish the National Computer Forensic Institute 
to train our State and local law enforcement partners in the area of 
cyber crime. These initiatives led to the opening of 957 criminal cases 
and the arrest of 1,217 suspects in fiscal year 2010 for cyber crime 
related violations with a fraud loss of $507.7 million. The arrest of 
these individuals prevented an additional loss estimated at $7 billion 
dollars and involved the examination of 867 terabytes of data, which is 
roughly the equivalent of 867,000 copies of the Encyclopedia 
Britannica. As a result of these efforts, the Secret Service is 
recognized worldwide for our investigative and innovative approaches to 
detecting, investigating, and preventing cyber crimes.

Trends in Cyber Crimes
    Advances in computer technology and greater access to personal 
information via the Internet have created a virtual marketplace for 
transnational cyber criminals to share stolen information and criminal 
methodologies. As a result, the Secret Service has observed a marked 
increase in the quality, quantity, and complexity of cyber crimes 
targeting private industry and critical infrastructure. These crimes 
include network intrusions, hacking attacks, malicious software, and 
account takeovers leading to significant data breaches affecting every 
sector of the world economy.
    The increasing level of collaboration among cyber criminals raises 
both the complexity of investigating these cases and the level of 
potential harm to companies and individuals. For example, illicit 
Internet carding portals allow criminals to traffic stolen information 
in bulk quantities globally. These portals, or ``carding Web sites,'' 
operate like online bazaars where criminals converge to trade personal 
financial data and cyber tools of the trade. The Web sites vary in 
size, from a few dozen members to some of the more popular sites 
boasting membership of approximately 80,000 users. Within these 
portals, there are separate forums moderated by notorious members of 
the carding community. Members meet online and discuss specific topics 
of interest. Criminal purveyors buy, sell, and trade malicious 
software, spamming services, credit, debit and ATM card data, personal 
identification data, bank account information, brokerage account 
information, hacking services, counterfeit identity documents, and 
other forms of contraband.
    Over the years, the Secret Service has infiltrated many of the 
``carding Web sites.'' One such infiltration allowed the Secret Service 
to initiate and conduct a 3-year investigation that led to the 
indictment of 11 perpetrators involved in hacking nine major U.S. 
retailers and the theft and sale of more than 40 million credit and 
debit card numbers. The investigation revealed that defendants from the 
United States, Estonia, China, and Belarus successfully obtained credit 
and debit card numbers by hacking into the wireless computer networks 
of major retailers--including TJX Companies, BJ's Wholesale Club, 
OfficeMax, Boston Market, Barnes & Noble, Sports Authority, and Dave & 
Buster's. Once inside the networks, they installed ``sniffer'' programs 
that would capture card numbers, as well as password and account 
information, as they moved through the retailers' credit and debit 
processing networks. After the data was collected, the conspirators 
concealed the information in encrypted computer servers that they 
controlled in the United States and Eastern Europe. The credit and 
debit card numbers were then sold through online transactions to other 
criminals in the United States and Eastern Europe. The stolen numbers 
were ``cashed out'' by encoding card numbers on the magnetic strips of 
blank cards. The defendants then used these cards to withdraw tens of 
thousands of dollars at a time from ATMs. The defendants were able to 
conceal and launder their fraudulent proceeds by using anonymous 
Internet-based electronic currencies within the United States and 
abroad, and by channeling funds through bank accounts in Eastern 
Europe.
    In both of these cases, the effects of the criminal acts extended 
well beyond the companies compromised, affecting millions of individual 
card holders in one of the incidents. Although swift investigation, 
arrest, and prosecution prevented many consumers from direct financial 
harm, all potential victims were at risk for misuse of their credit 
cards, overall identity theft, or both. Further, business costs 
associated with the need for enhanced security measures, reputational 
damage and direct financial losses are ultimately passed on to 
consumers.

Collaboration With Other Federal Agencies and International Law 
        Enforcement
    While cyber criminals operate in a world without borders, the law 
enforcement community does not. The increasingly multinational, 
multijurisdictional nature of cyber crime cases has increased the time 
and resources needed for successful investigation and adjudication. The 
partnerships developed through our Electronic Crimes Task Forces, the 
support provided by our Cyber Intelligence Section, the liaison 
established by our overseas offices, and the training provided to our 
special agents via Electronic Crimes Special Agent Program were all 
instrumental to the Secret Service's successful investigation into the 
network intrusion of Heartland Payment Systems. An August 2009 
indictment alleged that a transnational organized criminal group used 
various network intrusion techniques to breach security, navigate the 
credit card processing environment, and plant a ``sniffer,'' a data 
collection device, to capture payment transaction data.
    The Secret Service investigation--the largest and most complex data 
breach investigation ever prosecuted in the United States--revealed 
that data from more than 130 million credit card accounts were at risk 
of being compromised and exfiltrated to a command and control server 
operated by an international group directly related to other ongoing 
Secret Service investigations. During the course of the investigation, 
the Secret Service uncovered that this international group committed 
other intrusions into multiple corporate networks to steal credit and 
debit card data. The Secret Service relied on various investigative 
methods, including subpoenas, search warrants, and Mutual Legal 
Assistance Treaty requests through our foreign law enforcement partners 
to identify three main suspects. As a result of the investigation, the 
three suspects in the case were indicted for various computer-related 
crimes. The lead defendant in the indictment pled guilty and was 
sentenced to 20 years in Federal prison. This investigation is ongoing 
with over 100 additional victim companies identified. The Secret 
Service is working with our law enforcement partners both domestically 
and overseas to apprehend the two defendants who are still at large.
    Recognizing these complexities, several Federal agencies are 
collaborating to investigate cases and identify proactive strategies. 
Greater collaboration within the Federal, State, and local law 
enforcement community enhances information sharing, promotes efficiency 
in investigations, and facilitates efforts to de-conflict in cases of 
concurrent jurisdiction. For example, the Secret Service has 
collaborated extensively with the Department of Justice's Computer 
Crimes and Intellectual Property Section (CCIPS), which ``prevents, 
investigates, and prosecutes computer crimes by working with other 
Government agencies, the private sector, academic institutions, and 
foreign counterparts.'' \2\ The Secret Service's Electronic Crimes Task 
Forces are a natural complement to CCIPS, resulting in an excellent 
partnership over the years. In the last decade, nearly every major 
cyber investigation conducted by the Secret Service has benefited from 
CCIPS contributions. Successful investigations such as the prosecution 
of the Shadowcrew criminal organization, E-Gold prosecution, TJX and 
Heartland investigations, as well as the recent apprehension of 
Vladislav Horohorin, were possible as a result of this valued 
partnership. The Secret Service looks forward to continuing our 
excellent work together.
---------------------------------------------------------------------------
     \2\ U.S. Department of Justice. (n.d.). Computer Crime and 
Intellectual Property Section: About CCIPS. Retrieved from http://
www.justice.gov/criminal/cybercrime/ccips.html.
---------------------------------------------------------------------------
    The Secret Service also maintains an excellent relationship with 
the Federal Bureau of Investigation (FBI). The Secret Service has a 
permanent presence at the National Cyber Investigative Joint Task Force 
where the FBI leads Federal law enforcement efforts surrounding cyber 
matters of national security. In the last several years, the Secret 
Service has partnered with the FBI on various high-profile cyber 
investigations.
    The case of Vladislav Horohorin is another example of successful 
cooperation between the Secret Service and its law enforcement partners 
around the world. Mr. Horohorin, one of the world's most notorious 
traffickers of stolen financial information, was arrested in Nice, 
France, on August 25, 2010, pursuant to a U.S. arrest warrant issued by 
the Secret Service. Mr. Horohorin created the first fully automated 
online store which was responsible for selling stolen credit card data. 
Working with our international law enforcement partners, the Secret 
Service identified and apprehended Mr. Horohorin as he was boarding a 
flight from France back to Russia. Both the CCIPS and the Office of 
International Affairs of the Department of Justice played critical 
roles in this apprehension. Furthermore, as a result of information 
sharing, the FBI was able to bring additional charges against Mr. 
Horohorin for his involvement in a Royal Bank of Scotland network 
intrusion. We are presently awaiting Mr. Horohorin's extradition to the 
United States to face charges levied upon him in different districts by 
both the Secret Service and the FBI. This type of cooperation is 
crucial if law enforcement is to be successful in disrupting and 
dismantling criminal organizations involved in cyber crime.
    One of the main obstacles that agents investigating transnational 
crimes encounter is the jurisdictional limitations. The Secret Service 
believes that to fundamentally address this issue, appropriate levels 
of liaison and partnerships must be established with our international 
law enforcement counterparts. Currently, the Secret Service operates 23 
offices abroad, each having regional responsibilities to provide global 
coverage. The personal relationships that have been established in 
those countries are often the crucial element to the successful 
investigation and prosecution of suspects abroad.
    Within DHS, the Secret Service has strengthened our relationship 
with the National Protection and Programs Directorate's (NPPD) United 
States Computer Emergency Readiness Team (US-CERT), which provides 
response support and defense against cyber intrusions or incidents for 
the Federal Civil Executive Branch (.gov) domain, as well as 
information sharing and collaboration with State and local government, 
industry and international partners. As the Secret Service identifies 
malware, suspicious IPs and other information through its criminal 
investigations, it shares information with US-CERT. The Secret Service 
looks forward to building on its full-time presence at US-CERT, and 
broadening this and other partnerships within the Department.
    As a part of these efforts and to ensure that information is shared 
in a timely and effective manner, the Secret Service has personnel 
detailed to the following DHS and non-DHS entities:

  <bullet>  NPPD's Office of the Under Secretary;

  <bullet>  NPPD's National Cyber Security Division (US-CERT);

  <bullet>  NPPD's Office of Infrastructure Protection;

  <bullet>  DHS's Science and Technology Directorate (S&T);

  <bullet>  Department of Justice National Cyber Investigative Joint 
        Task Force (NCIJTF);

  <bullet>  Each FBI Joint Terrorism Task Force (JTTF), including the 
        National JTTF;

  <bullet>  Department of the Treasury--Terrorist Finance and Financial 
        Crimes Section

  <bullet>  Department of the Treasury--Financial Crimes Enforcement 
        Network (FinCEN);

  <bullet>  Central Intelligence Agency;

  <bullet>  Department of Justice, International Organized Crime and 
        Intelligence Operations Center;

  <bullet>  Drug Enforcement Administration's Special Operations 
        Division

  <bullet>  EUROPOL; and

  <bullet>  INTERPOL

    The Secret Service is committed to ensuring that all its 
information sharing activities comply with applicable laws, 
regulations, and policies, including those that pertain to privacy and 
civil liberties.

Secret Service Framework
    To protect our financial infrastructure, industry, and the American 
public, the Secret Service has adopted a multifaceted approach to 
aggressively combat cyber and computer-related crimes. The Secret 
Service has dismantled some of the largest known transnational cyber-
criminal organizations by:

  <bullet>  Providing computer-based training to enhance the 
        investigative skills of special agents through our Electronic 
        Crimes Special Agent Program, and to our State and local law 
        enforcement partners through the National Computer Forensics 
        Institute;

  <bullet>  Collaborating with our partners in law enforcement, the 
        private sector and academia through our 31 Electronic Crimes 
        Task Forces;

  <bullet>  Identifying and locating international cyber criminals 
        involved in network intrusions, identity theft, credit card 
        fraud, bank fraud, and other computer-related crimes through 
        the analysis provided by our Cyber Intelligence Section;

  <bullet>  Maximizing partnerships with international law enforcement 
        counterparts through our international field offices; and

  <bullet>  Maximizing technical support, research and development, and 
        public outreach through the Software Engineering Institute/CERT 
        Liaison Program at Carnegie Mellon University.

Electronic Crimes Special Agent Program
    A central component of the Secret Service's cyber-crime 
investigations is its Electronic Crimes Special Agent Program (ECSAP), 
which is comprised of nearly 1,400 Secret Service special agents who 
have received at least one of three levels of computer crimes-related 
training. These agents are deployed in more than 98 Secret Service 
offices throughout the world and have received extensive training in 
forensic identification, preservation, and retrieval of electronically 
stored evidence. ECSAP-trained agents are computer investigative 
specialists, qualified to conduct examinations on all types of 
electronic evidence. These special agents are equipped to investigate 
the continually evolving arena of electronic crimes and have proven 
invaluable in the successful prosecution of criminal groups involved in 
computer fraud, bank fraud, identity theft, access device fraud, and 
various other electronic crimes targeting our financial institutions 
and private sector.
    The ECSAP program is divided into three levels of training:

Level I--Basic Investigation of Computers and Electronic Crimes 
(BICEP). The BICEP training program focuses on the investigation of 
electronic crimes and provides a brief overview of several aspects 
involved with electronic crimes investigations. This program provides 
Secret Service agents and our State and local law enforcement partners 
with a basic understanding of computers and electronic crime 
investigations and is now part of our core curriculum for newly hired 
special agents.

Level II--Network Intrusion Responder (ECSAP-NI). ECSAP-NI training 
provides special agents with specialized training and equipment that 
allows them to respond to and investigate network intrusions. These may 
include intrusions into financial sector computer systems, corporate 
storage servers or various other targeted platforms. The Level II 
trained agent will be able to identify critical artifacts that will 
allow effective investigation of identity theft, malicious hacking, 
unauthorized access, and various other related electronic crimes.

Level III--Computer Forensics (ECSAP-CF). ECSAP-CF training provides 
special agents with specialized training and equipment that allows them 
to investigate and forensically obtain legally admissible digital 
evidence to be utilized in the prosecution of various electronic crimes 
cases, as well as criminally focused protective intelligence cases.

Electronic Crimes Task Forces
    In 1995, the Secret Service established the New York Electronic 
Crimes Task Force (ECTF) to combine the resources of academia, the 
private sector, and local, State, and Federal law enforcement agencies 
to combat computer-based threats to our financial payment systems and 
critical infrastructures. Congress further directed the Secret Service 
in Public Law 107-56 to establish a nationwide network of ECTFs to 
``prevent, detect, and investigate various forms of electronic crimes, 
including potential terrorist attacks against critical infrastructure 
and financial payment systems.''
    The Secret Service currently operates 31 ECTFs, including two based 
overseas in Rome, Italy, and London, England. Membership in our ECTFs 
includes: 4,093 private sector partners; 2,495 international, Federal, 
State, and local law enforcement partners; and 366 academic partners. 
By joining our ECTFs, all of our partners benefit from the resources, 
information, expertise and advanced research provided by our 
international network of members while focusing on issues with 
significant regional impact.

Cyber Intelligence Section
    Another example of our partnership approach with private industry 
is our Cyber Intelligence Section (CIS) which collects, analyzes, and 
disseminates data in support of Secret Service investigations worldwide 
and generates new investigative leads based upon its findings. CIS 
leverages technology and information obtained through private sector 
partnerships to monitor developing technologies and trends in the 
financial payments industry for information that may be used to enhance 
the Secret Service's capabilities to prevent and mitigate attacks 
against the financial and critical infrastructures.
    CIS has an operational unit that investigates international cyber 
criminals involved in cyber intrusions, identity theft, credit card 
fraud, bank fraud, and other computer-related crimes. The information 
and coordination provided by CIS is a crucial element to successfully 
investigating, prosecuting, and dismantling international criminal 
organizations.

National Computer Forensics Institute
    The National Computer Forensics Institute (NCFI) initiative is the 
result of a partnership between the Secret Service, NPPD of DHS, the 
State of Alabama, and the Alabama District Attorney's Association. The 
goal of this facility is to provide a national standard of training for 
a variety of electronic crimes investigations. The program offers State 
and local law enforcement officers, prosecutors, and judges the 
training necessary to conduct computer forensics examinations. 
Investigators are trained to respond to network intrusion incidents and 
conduct electronic crimes investigations.
    Since the establishment of NCFI on May 19, 2008, the Secret Service 
has provided critical training to 932 State and local law enforcement 
officials representing over 300 agencies from all 50 States and two 
U.S. territories.

Computer Emergency Response Team/Software Engineering Institute (CERT-
        SEI)
    In August 2000, the Secret Service and Carnegie Mellon University 
Software Engineering Institute (SEI) established the Secret Service 
CERT Liaison Program to provide technical support, opportunities for 
research and development and public outreach and education to more than 
150 scientists and researchers in the fields of computer and network 
security, malware analysis, forensic development, training and 
education. Supplementing this effort is research into emerging 
technologies being used by cyber criminals and development of 
technologies and techniques to combat them.
    The primary goals of the program are: to broaden the Secret 
Service's knowledge of software engineering and networked systems 
security; to expand and strengthen partnerships and relationships with 
the technical and academic communities; to provide an opportunity to 
work closely with CERT-SEI and Carnegie Mellon University; and to 
present the results of this partnership at the quarterly meetings of 
our ECTFs.
    In August 2004, the Secret Service partnered with CERT-SEI to 
publish the first ever ``Insider Threat Study'' examining the illicit 
cyber activity in the banking and finance sector. Due to the 
overwhelming response to this initial study, the Secret Service and 
CERT-SEI, in partnership with DHS S&T, are working to update the study. 
An updated study, expected to be released in late 2011, will analyze 
actual incidents of insider crimes from inception to prosecution. The 
research team will share its findings with Federal, State, and local 
law enforcement, private industry, academia and other Government 
agencies.

Conclusion
    As more information is stored in cyberspace, target-rich 
environments are created for sophisticated cyber criminals. With proper 
network security, businesses can provide a first line of defense by 
safeguarding the information they collect. Such efforts can 
significantly limit the opportunities for these criminal organizations. 
Furthermore, the prompt reporting of major data breaches involving 
sensitive personally identifiable information to the proper authorities 
will help ensure a thorough investigation is conducted.
    The Secret Service is committed to safeguarding the Nation's 
financial payment systems by investigating and dismantling criminal 
organizations involved in cyber crime. Responding to the growth in 
these types of crimes and the level of sophistication these criminals 
employ requires significant resources and greater collaboration among 
law enforcement and its public and private sector partners. 
Accordingly, the Secret Service dedicates significant resources to 
improving investigative techniques, providing training for law 
enforcement partners and raising public awareness. The Secret Service 
will continue to be innovative in its approach to cyber crime and 
cybersecurity and is pleased that the Subcommittee recognizes the 
magnitude of these issues and the evolving nature of these crimes.
    Chairman Johnson, Ranking Member Shelby, and distinguished Members 
of the Committee, this concludes my prepared statement. Thank you again 
for this opportunity to testify on behalf of the Secret Service. I will 
be pleased to answer any questions at this time.

              Additional Material Supplied for the Record

 STATEMENT SUBMITTED BY THE SECURITIES INDUSTRY AND FINANCIAL MARKETS 
                              ASSOCIATION
I. Introduction
    SIFMA supports the goals of President Obama and Congress to limit 
cybersecurity threats to the American people, businesses, and 
Government through a more integrated approach to fighting these 
threats. The increase in cyber intrusions and cyber crimes in the past 
decade is cause for great concern, particularly those in the financial 
services sector. SIFMA member firms are on the front lines of defense 
against cyber threats to the financial markets and we take this role 
very seriously. On May 12, 2011, President Obama released an extensive 
proposal (Proposal) which is intended to bolster the American 
cybersecurity infrastructure and protect Americans from cyber threats. 
Although SIFMA supports the ultimate goals of the Proposal, we are 
concerned that the Proposal does not adequately take into consideration 
the extensive existing regulatory framework under which the financial 
services industry functions.
    SIFMA brings together the shared interests of more than 600 
securities firms, banks, and asset managers throughout the world. By 
building trust and confidence in the financial industry SIFMA intends 
to encourage capital availability, job creation, and economic growth. 
Encouraging effective data protection goes to the heart of SIFMA's 
mission of building trust and confidence in the financial services 
industry. Without effective protection of the personal data of their 
customers, financial institutions would lack the public trust that is 
so critical for their operation.
    SIFMA's members include some of the largest financial institutions 
in the world. As part of the financial services industry, SIFMA members 
are currently subject to stringent laws and regulation on the 
protection of personal data, including the Gramm-Leach-Bliley Act 
(GLBA), the Fair Credit Reporting Act (FCRA) and the Right to Financial 
Privacy Act. These laws and regulations are reinforced by regular, 
proactive review and audit by highly specialized regulators. 
Consequently, SIFMA members are accustomed to and fully supportive of 
protecting their customers' data, and, as partners and service 
providers, the data of customers of financial institutions worldwide.

II. Importance of Recognizing Uniqueness of the Financial Services 
        Sector
    The United States has for decades embraced a sector-specific 
approach to data security and privacy regulation. As a result, health 
and financial information are subject to extensive regulation that was 
crafted for the unique circumstances presented by those industries. 
Applying general data security and privacy concepts to those industries 
is not only unnecessary, it could be inconsistent with existing 
regulations and produce unintended negative consequences.
    SIFMA urges Congress to consider the unique position of the U.S. 
financial services sector in connection with the ongoing examination of 
national privacy framework. As discussed below, financial services 
firms appreciate more than almost any sector of the economy the 
importance of maintaining the confidentiality of customer information. 
The financial services industry is keenly aware of the potential for 
tangible harm that could flow from a privacy or security lapse, and has 
long played a leadership role in developing policies, procedures, and 
technology to protect customer data.
    The financial services industry has had an effective and 
longstanding engagement with the U.S. Treasury Department on 
cybersecurity since Presidential Decision Directive/NSC-63 was issued 
in May 1998. In response, the industry proactively formed the Financial 
Services Information Sharing and Analysis Center (FS-ISAC). The 
industry has committed significant time and effort to integration with 
the Department of Homeland Security (DHS) through US-CERT and the 
National Cybersecurity and Communications Integration Center (NCCIC). 
In addition, the FS-ISAC is already in the process of embedding 
appropriately cleared staff in the NCCIC.
    Since 1970, the FCRA has promoted the accuracy, fairness, and 
privacy of personal data assembled by ``consumer reporting agencies'' 
(CRAs), including data provided by a majority of SIFMA member firms. 
The FCRA establishes a framework of fair information practices that 
include rights of data quality, data security, identity theft 
prevention, use limitations, requirements for data destruction, notice, 
user consent, and accountability.
    The GLBA provides data privacy rules applicable to ``financial 
institutions,'' a term defined broadly to cover entities significantly 
engaged in financial activities such as banking, insurance, securities 
activities, and investment activities. The GLBA imposes data privacy 
obligations such as the obligation to securely store personal financial 
information, and provide data subjects with notice of the institution's 
privacy practices and the right to opt-out of some sharing of personal 
financial information. The GLBA and the regulations issued under the 
GLBA help to protect valuable customer information and to prevent data 
breaches. Through exceptionally broad definitions, GLBA protections 
apply to virtually all personal information about individual consumers 
or customers held by more than 40,000 financial institutions in the 
United States--including less traditional ``financial institutions'' 
such as check-cashers, information aggregators, and financial software 
providers. Moreover, the GLBA and its implementing regulations require 
financial institutions not only to limit the disclosure of customer 
information, but also to protect that information from unauthorized 
accesses or uses. The GLBA regulations also provide guidelines to 
financial institutions on appropriate actions in response to a breach 
of security of sensitive data, including on investigation, containment, 
and remediation of the incident and notification of consumers and/or 
law enforcement authorities when warranted.
    Many SIFMA member firms also follow the Federal Financial 
Institutions Examination Council (FFIEC) guidance and monitoring 
procedures. The FFIEC is an interagency body empowered to prescribe 
uniform principles, standards, and report forms for the Federal 
examination of financial institutions by the Board of Governors of the 
Federal Reserve System, the Federal Deposit Insurance Corporation, the 
National Credit Union Administration, the Office of the Comptroller of 
the Currency, and the Office of Thrift Supervision. The FFIEC also 
makes recommendations to promote uniformity in the supervision of 
financial institutions. In the area of cybersecurity and data breach 
protection, the FFIEC has published the following standards: FFIEC 
Interagency Guidelines Establishing Standards for Safeguarding Customer 
Information; FFIEC Interagency Guidelines Establishing Information 
Security Standards; FFIEC Interagency Guidance on Response Programs for 
Unauthorized Access to Customer Information and Customer Notice; FFIEC 
Information Technology Examination Handbook (includes guidance and 
audit provisions of many of the requirements identified in the guidance 
documents referenced above).
    Finally, many SIFMA member firms who process Government loan data 
must comply with the Federal Information Security Management Act of 
2002 (FISMA) and the Federal Information System Controls Audit Manual 
2009 (FISCAM). FISMA emphasizes the need to develop, document, and 
implement an enterprise-wide program to provide information security 
for the information and information systems that support the operations 
and assets of the Federal Government, including those provided or 
managed by another agency, contractor, or other source. FISMA directs 
the promulgation of Federal standards for: (i) the security 
categorization of Federal information and information systems based on 
the objectives of providing appropriate levels of information security 
according to a range of risk levels; and (ii) minimum security 
requirements for information and information systems in each such 
category.
    In accordance with FISMA, the National Institute of Standards and 
Technology (NIST) develops the guidance and procedures which directly 
pertain to security control implementation, continuous monitoring, 
independent assessment, and risk analysis. The NIST Federal Information 
Processing Standard (FIPS) Publication 200, ``Minimum Security 
Requirements for Federal Information and Information Systems,'' 
specifies minimum security requirements for Federal information in 17 
security-related areas. These minimum security requirements are defined 
through the use of the security controls provided by NIST Special 
Publication 800-53 rev3, ``Recommended Security Controls for Federal 
Information Systems.''
    FISCAM is designed to be used primarily on financial and 
performance audits and attestation engagements performed in accordance 
with generally accepted Government auditing standards (GAGAS), as 
presented in Government Auditing Standards (also known as the ``Yellow 
Book''). FISCAM is also consistent with the GAO/PCIE Financial Audit 
Manual (FAM). Additionally, FISCAM control activities are consistent 
with NIST Special Publication 800-53 rev3 controls.

III. Support for the Proposal

A. Improved Coordination Across Agencies and Sectors
    SIFMA believes the Proposal takes many important steps to ensuring 
a safer cyber community and SIFMA fully supports those efforts. The 
Federal Government should be leading the proactive defense against 
cybersecurity threats and take coordinated action to protect critical 
infrastructure from such attacks. SIFMA members rely heavily on other 
sectors such as telecommunications, information technology, energy, and 
transportation which are frequently at risk for cyber attacks. SIFMA 
supports enhanced supervision over service providers on which financial 
institutions depend (e.g., hardware and software providers, Internet 
service providers, etc.). Such coordination may be achieved by building 
on the existing mechanisms that seek to address these issues (e.g., 
Partnership for Critical Infrastructure Security).
    Moreover, SIFMA believes that cyber threats can be best fought 
through a coordinated defense network across agencies and business 
sectors. Such an infrastructure would improve communication and 
enforcement mechanisms. Coordination should occur at the agency level 
where agencies can report cyber threats through predetermined channels 
whereby threats can be reviewed and analyzed consistently, regardless 
of source. Individual firms should not be required to report cyber 
attacks and threats to multiple agencies under multiple reporting 
regimes. Such a structure is inefficient and may delay defensive 
measures.
    SIFMA also supports the Administration's commitment to two-way 
public/private information-sharing, leveraging the Information Sharing 
and Analysis Centers (ISACs), the US-CERT, safe harbors, clearances, 
and confidentiality guarantees. As an example, the Financial Services-
Information Sharing and Analysis Center (FS-ISAC) constantly gathers 
reliable and timely information from financial services providers, 
commercial security firms, Federal, State, and local government 
agencies, law enforcement and other trusted resources. FS-ISAC is 
uniquely positioned to quickly disseminate physical and cyber threat 
alerts and other critical information to participating organizations, 
including analysis and recommended solutions from leading security 
industry experts. SIFMA also believes there is opportunity to 
accelerate information flow on a cyber event without compromising 
sensitive information. This can be done through segmentation, 
protocols, and decision trees.
    SIFMA also supports Federal cybersecurity supply chain management 
and promotion of cybersecurity as a priority in Federal procurement. 
Other efforts to defend against cybersecurity threats will be lessened 
without financial support for the infrastructure necessary to implement 
a defense strategy.

B. Law Enforcement
    SIFMA supports the strengthening and clarification of criminal 
penalties for certain cyber crimes. Such expansion will provide 
additional protection for consumers and financial institutions from 
financial crimes. These improvements are further bolstered by the 
increase in budgets and personnel for these purposes at law enforcement 
agencies.

C. Technology and International Cooperation
    SIFMA believes that the development of essential technologies and 
improving Federal systems are important efforts which should be 
supported. As DHS and NIST pursue their research and development 
agendas, and as the Administration pursues its recently announced 
International Strategy for Cyberspace, we hope to see substantial 
resource commitments and advances in these areas. SIFMA also supports 
the improvement of the resilience and security of Federal systems to 
further prevent cyber crime.

D. Cooperation With International Partners
    Because cybersecurity is a global problem and cyber crimes 
frequently occur across borders, cooperation with international 
partners is critical to preventing, investigating, and prosecuting 
cyber crime. Without strong cooperation with international law 
enforcement agencies, U.S. efforts to improve cybersecurity will be 
severely limited.

E. Safe Harbor for Voluntary Disclosure
    SIFMA members believe that the safe harbor provisions for 
cybersecurity reporting under Sec. 245, ``Voluntary Disclosure of 
Cybersecurity Information,'' will be helpful for SIFMA members and 
provide much-needed extra protections for sharing information beyond 
what is currently available under Protected Critical Infrastructure 
Information (PCII) provisions.

F. Safe Harbor for Encrypted Information
    Although SIFMA has reservations about several aspects of the data 
breach notification provisions, SIFMA is supportive of the safe harbor 
in Section 102(b) whereby if the data which is the subject of a breach 
is ``unusable, unreadable, or indecipherable through a security 
technology'' there is a presumption of no reasonable risk. Currently, 
not all States allow for such a presumption, so a consistent Federal 
standard for such a presumption would be helpful when assessing a 
security breach. Our other concerns related to the data breach 
notification provisions, are set forth in the next section below.

G. Public Education and Awareness
    Public education and awareness campaigns have been a critical 
method of limiting cyber crimes in the financial services industry. 
Both the SEC and SIFMA members have promoted public awareness of the 
risk of disclosure of personal information for many years, and SIFMA 
supports the expansion of any such campaigns and promotions.

IV. SIFMA Concerns With the Proposal

A. Data Breach Notification
    SIFMA members are concerned that the data breach notification 
provisions in the Proposal are unduly burdensome as currently drafted. 
Although SIFMA believes a preemptive data breach notification standard 
would serve the industry well, the Federal Trade Commission (FTC) 
reporting requirements in the Proposal are potentially more burdensome 
than the existing web of State data breach notifications laws and 
regulations. SIFMA believes that a reasonable Federal data breach 
notification standard would help reduce cyber crime and protect 
individuals and businesses from unnecessary losses. To reach that 
standard, however, SIFMA believes the Proposal should be changed to 
incorporate several critical concepts as outlined below.
            1. Definition of Security Breach
    As proposed, the definition of ``Security Breach'' is significantly 
broader than most existing State data breach notification requirements. 
SIFMA recommends a definition similar to several State laws that would 
define security breach as ``unlawful and unauthorized acquisition of 
computerized data that materially compromises the security, 
confidentiality, or integrity of personal information maintained by the 
person.'' See, e.g., Fla. Stat. 817.5681(4). SIFMA also asserts that 
there should be a good faith exception for employees or agents of the 
firm for businesses purposes so long as there is no further 
unauthorized disclosure or use of such information. See, e.g., N.Y. 
GBS. LAW 899-aa.
            2. Definition of Sensitive Personally Identifiable 
                    Information
    SIFMA believes that the current definition of ``Sensitive 
Personally Identifiable Information'' is unduly broad and if left 
unchecked would increase compliance costs severely without preventing 
data breach. Leaving the definition open to FTC interpretation and 
rulemaking creates additional uncertainty. The definition in the 
Proposal includes a social security number or driver's license number 
without any other information. Existing State laws generally define 
``personal information'' as a person's name or other identifying 
information in conjunction with a social security or driver's license 
number. See, e.g., Fla. Stat. 817.5681(5). The disclosure of a social 
security or driver's license number without any other identifying 
information should not trigger data breach notification requirements 
because such information has limited or no value. Requiring firms to 
undergo a risk assessment and FTC report every time such a piece of 
information is misdirected in good faith would require multiple reports 
per week.
    In addition, the definition in Section 1(g)(4) of the Proposal also 
includes ``a unique account identifier, including a financial account 
number or credit or debit card number, electronic identification 
number, user name, or routing code.'' Yet, Section 1(g)(5) requires 
such information in (g)(4) plus a name or security code to trigger the 
notification requirements. SIFMA proposes deleting paragraph (g)(4) as 
duplicative and unnecessarily broad. If section (g)(4) is passed as 
written, the daily business ramifications for SIFMA member firms would 
be extensive. Among others, account numbers are necessary for financial 
firms to transact its business as well as for allocation to ensure that 
transactions are aligned with proper account information. If 
transaction information is misdelivered and happens to contain only 
account numbers, the firm would have to conduct a risk assessment and 
report the results to the FTC. Those efforts would far outweigh any 
benefit reaped from such an innocuous disclosure.
            3. FTC Reporting Requirements (Safe Harbor Exemption)
    The Proposal's exemption under Sec. 102(b) provides a safe harbor 
from enforcement when a firm determines that there is no risk of harm 
to an individual from a security breach. The qualifying firm will not 
send a notice to that individual if within 45 days the firm submits to 
the FTC a written risk assessment justifying the conclusion of no harm. 
SIFMA believes that performing a risk assessment and submitting such 
results to the FTC for every Security Breach no matter how small or 
insignificant mitigates the potential benefit of having such a safe 
harbor. As currently drafted, even a small data misdirection between 
financial institutions due to an error would constitute a Security 
Breach and thus would require the firm to perform a risk assessment and 
submit the results to the FTC. This result is in spite of the fact that 
the ``unauthorized party'' is in fact another financial institution 
covered by the same legal, regulatory and operational controls and 
there with only minimal risk for harm to the customer. Consequently 
SIFMA believes that this provision is not actually a safe harbor, but 
rather an additional layer of reporting obligation. We would recommend 
that this provision be amended to only cover material Security 
Breaches, such that a small or insignificant misdirection of data, 
particularly when the recipient is a regulated entity, should not 
trigger these requirements.
            4. Effective Date
    SIFMA members are concerned that the effective date of 90 days 
after enactment for the data breach notification requirement is too 
short. The time frame does not give the FTC adequate time to propose 
and adopt clarifying regulations. In addition, firms must make 
corresponding changes to policies and procedures, as well as modify 
their reporting systems. The new notification and disclosure provisions 
will require training and hiring of new staff, which will be difficult 
to achieve in a 90-day period.

B. Covered Critical Infrastructure
            1. DHS as a Cybersecurity Regulator
    As currently drafted, the Proposal centralizes domestic 
cybersecurity responsibilities in DHS, thus making DHS a regulator as 
well as an enforcer. The addition of DHS into the web of financial 
services regulation may cause complications for both regulators and 
regulated financial services firms. SIFMA would prefer for the existing 
financial regulators to continue as primary regulators for the firms. 
The financial regulators could then coordinate with DHS and the FTC to 
the extent necessary, but the firms would not be required to report 
directly to DHS.
    DHS is primarily a technical coordination agency for cybersecurity 
but DHS has no fundamental understanding of the many business functions 
performed by the financial services sector. Sector Specific Agencies 
(SSAs), such as the Department of Treasury, under Homeland Security 
Presidential Decision Directive 7 and the National Infrastructure 
Protection Plan, play a significant role for the sector in providing 
business understanding and advocacy.
    In addition, there is a technical capability gap between DHS, the 
NSA, and U.S. Cyber Command (CYBERCOM). NSA, CYBERCOM, and all 
intelligence community members need to be subordinate technical and 
operational resources that DHS coordinates to support critical 
infrastructure. These agencies need to be subject to the mandate of the 
National Infrastructure Protection Plan (NIPP) and function to 
coordinate all engagement with CI/KR sectors through DHS and the SSAs. 
DHS would be responsible for the incident response process and national 
technical coordination. For the financial services industry, the 
Department of Treasury, along with the SEC, CFTC, Federal Reserve 
Board, and others, would handle mission, business, and regulatory 
coordination.
            2. Identifying Critical Infrastructure Operators
    The Proposal gives DHS the authority to designate an organization 
as a critical infrastructure operator. SIFMA believes that DHS is not 
well-suited to this role because of its lack of familiarity with the 
operations of financial services organizations. The Treasury 
Department, as the Sector Specific Agency for the financial services 
sector, and the regulatory agencies through the FBIIC, should determine 
if an institution in the sector is considered critical, not DHS.
            3. Risk Mitigation Framework and Evaluation
    The Proposal would require critical operators to develop a 
framework to address cyber threats, and engage a third-party commercial 
auditor to assess such plans. These requirements would impose 
significant additional administrative burdens on financial services 
firms which are already subject to intense regulation. Although 
engaging an independent auditor significantly increases defense against 
cyber threats, it does not guarantee effectiveness. It also appears 
that DHS and NIST would have the ability to modify a firm's framework, 
which raises many questions for SIFMA members.
            4. Public Disclosure of Cybersecurity Plans
    SIFMA is also concerned about the requirements in the Proposal 
under Section 7(b) which would require the critical infrastructure 
operators to publicly disclose high-level summaries of their 
cybersecurity plans and whether those plans are working effectively. 
SIFMA believes that any disclosure of cyber defensive mechanisms may 
give criminals information which may help them to carry out a cyber 
crime.

V. Conclusion
    SIFMA supports the efforts of President Obama and Congress to 
further protect the American people, businesses, and Government from 
the increasing threat of cyber attacks and cyber crimes. SIFMA believes 
that this Proposal could help achieve those goals if the amendments 
suggested in this statement are implemented. Without such changes, this 
Proposal will have diminished value and could do more harm than good 
for SIFMA members and their customers.

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
